<html>
<title> - REAUTHORIZATION OF U.S. CHILD NUTRITION PROGRAMS: OPPORTUNITIES TO FIGHT HUNGER AND IMPROVE CHILD HEALTH

</title>
<body><pre>[Senate Hearing 111-798]
[From the U.S. Government Publishing Office]






 
                                                        S. Hrg. 111-798

                        REAUTHORIZATION OF U.S. 
                       CHILD NUTRITION PROGRAMS: 
                     OPPORTUNITIES TO FIGHT HUNGER 
                        AND IMPROVE CHILD HEALTH 

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION


                               __________

                           NOVEMBER 17, 2009

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

62-718 PDF                       WASHINGTON : 2011 

                               __________

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                 BLANCHE L. LINCOLN, Arkansas, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
TOM HARKIN, Iowa                     RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH MCCONNELL, Kentucky
DEBBIE STABENOW, Michigan            PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         MIKE JOHANNS, Nebraska
SHERROD BROWN, Ohio                  CHARLES GRASSLEY, Iowa
ROBERT CASEY, Jr., Pennsylvania      JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
MICHAEL BENNET, Colorado
KIRSTEN GILLIBRAND, New York

               Robert Holifield, Majority Staff Director

                    Jessica L. Williams, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                Anne C. Hazlett, Minority Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Reauthorization of U.S. Child Nutrition Programs: Opportunities 
  to Fight Hunger and Improve Child Health.......................     1

                              ----------                              

                       Tuesday, November 17, 2009
                    STATEMENTS PRESENTED BY SENATORS

Lincoln, Hon. Blanche L., U.S. Senator from the State of 
  Arkansas, Chairman, Committee on Agriculture, Nutrition, and 
  Forestry.......................................................     1
Chambliss, Hon. Saxby, U.S. Senator from the State of Georgia....     3

                                Panel I

Vilsack, Hon. Tom, Secretary, U.S. Department of Agriculture, 
  Washington, DC.................................................     5

                                Panel II

Bogle, Margaret, Executive Director, Delta Obesity Prevention 
  Research Unit, U.S. Department of Agriculture, Agricultural 
  Research Service, Little Rock, Arkansas........................    26
Huddleston, Rich, Executive Director, Arkansas Advocates for 
  Children and Families, Little Rock, Arkansas...................    29
 Sanders, Rhonda, Executive Director, Arkansas Hunger Relief 
  Alliance, Little Rock, Arkansas................................    30
Smith, Jennifer, Director of Compliance, Wal-Mart Stores, Inc., 
  Bentonville, Arkansas..........................................    33
                              ----------                              

                                APPENDIX

Prepared Statements:
    Casey, Hon. Robert P., Jr....................................    50
    Gillibrand, Hon. Kirsten.....................................    52
    Harkin, Hon. Tom.............................................    54
    Roberts, Hon. Pat............................................    56
    Bogle, Margaret..............................................    57
    Huddleston, Rich.............................................    63
    Sanders, Rhonda..............................................    72
    Smith, Jennifer..............................................    78
    Vilsack, Hon. Tom............................................    89
Document(s) Submitted for the Record:
    American Frozen Food Institute, prepared statement...........    98
    Child Food Insecurity: The Economic Impact on Our Nation.....   104
    Expanding Access to Child Nutrition Programs.................   133
    Feeding America, prepared statement..........................   139
    Obesity, Food Insecurity and the Federal Child Nutrition 
      Programs: Understanding the Linkages.......................   143
    Robert Wood Johnson Foundation Center to Prevent Childhood 
      Obesity, prepared statement................................   176
    Study Finds Lack of Food Plaguing More Families..............   187
    ``Even Very Low Levels of Food Insecurity Found to Harm 
      Children's Health'', Children's Healthwatch Policy ACTION 
      Brief......................................................   189
    ``Overweight Children, Weight-Based Teasing and Academic 
      Performance'', International Journal of Pediatric Obesity..   191
Question and Answer:
Chambliss, Hon. Saxby:
    Written questions for Hon. Tom Vilsack.......................   200
Harkin, Hon. Tom:
    Written questions for Hon. Tom Vilsack.......................   200
Bennet, Hon. Michael:
    Written questions for Hon. Tom Vilsack.......................   201
Brown, Hon. Sherrod:
    Written questions for Hon. Tom Vilsack.......................   204
Cornyn, Hon. John:
    Written questions for Hon. Tom Vilsack.......................   203
Casey, Hon. Robert P., Jr.:
    Written questions for Hon. Tom Vilsack.......................   203
Gillibrand, Hon. Kirsten:
    Written questions for Hon. Tom Vilsack.......................   205
Vilsack, Hon. Tom:
    Written response to questions from Hon. Saxby Chambliss......   208
    Written response to questions from Hon. Tom Harkin...........   210
    Written response to questions from Hon. Michael Bennet.......   213
    Written response to questions from Hon. John Cornyn..........   216
    Written response to questions from Hon. Robert P. Casey, Jr..   218
    Written response to questions from Hon. Sherrod Brown........   221
    Written response to questions from Hon. Kirsten Gillibrand...   224



                        REAUTHORIZATION OF U.S.



                       CHILD NUTRITION PROGRAMS:



                     OPPORTUNITIES TO FIGHT HUNGER



                        AND IMPROVE CHILD HEALTH

                              ----------                              


                       Tuesday, November 17, 2009

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 10:30 a.m., in 
Room 562, Dirksen Senate Office Building, Hon. Blanche Lincoln, 
Chairman of the committee, presiding.
    Present or submitting a statement: Senators Lincoln, 
Harkin, Stabenow, Brown, Casey, Klobuchar, Bennet, Gillibrand, 
Chambliss, Lugar, and Grassley.

  STATEMENT OF HON. BLANCHE L. LINCOLN, U.S. SENATOR FROM THE 
    STATE OF ARKANSAS, CHAIRMAN, COMMITTEE ON AGRICULTURE, 
                    NUTRITION, AND FORESTRY

    Chairman Lincoln. Well, good morning to everyone, and I 
hope the sky doesn't fall because I am starting early, which is 
unprecedented for me.
    [Laughter.]
    Chairman Lincoln. Unprecedented for me. I was waiting on 
our colleague, Senator Chambliss, and I know he will be joining 
us shortly, but I think I will go ahead and begin so that we 
can move forward.
    But good morning to everyone. We welcome you all to the 
Senate Agriculture Committee, where today we will continue a 
series of hearings begun by my predecessor, Senator Tom Harkin, 
in anticipation of the reauthorization of the Federal Child 
Nutrition Programs.
    We are honored today to be joined by two very distinguished 
panels of witnesses, including Secretary of Agriculture Tom 
Vilsack and a panel of experts from my home State of Arkansas.
    We undertake this task at a very difficult time. Just one 
week before Thanksgiving, as we all reflect on the many 
blessings in our lives, we are reminded of the tremendous need 
that exists across our great country. I know as a child, a 
farmer's daughter, and looking out at the field, realizing the 
plenty that existed and also realizing the need that existed in 
the community that I grew up, in East Arkansas.
    Just yesterday, the Department of Agriculture released its 
annual report on hunger and food insecurity. The technical 
terms that USDA uses in this report are low food security and 
very low food security. But folks, we have got to be honest 
with ourselves and honest what that really means. It means that 
these are families that are either hungry or a meal or two away 
from being hungry.
    This report highlights the seriousness of the child 
nutrition bill that lies before us. According to the USDA, in 
2008, 16.4 percent of all individuals, just over 49 million 
people, experienced hunger or were at risk of hunger at some 
point in time during the prior year. This is an increase of 
nearly 13 million people over a year. Never before in the 
history of this survey has this country experienced increases 
of this magnitude.
    For our most vulnerable citizens, our children, the story 
is even worse. For those of us that have young, growing 
children who come in from school or soccer practice and look up 
at us and say, ``Mom, I am starving,'' and we reach to the 
cupboard and find a healthy snack, an apple or a banana or 
maybe a breakfast bar of some sort, we look into their eyes and 
realize that they are satisfied and that we have done our best 
job.
    But we also have to put ourselves into the shoes of mothers 
who don't have that opportunity, whose kids come in and say, 
``Mom, I am starving,'' and a mom who loves her children just 
as much as I love mine has to look into those eyes and realize 
that there isn't something nutritious to feed their children, 
or maybe nothing at all. That is what we are here to talk about 
today.
    Twenty-two-point-five percent of families with children 
were at risk of hunger in 2008, up from 16.9 percent in 2007. 
Rates were also markedly higher than the national average for 
single parents and black and Hispanic households. I am also sad 
to report that my home State of Arkansas now has the third 
highest rate of hunger in the country. Fifteen-point-nine 
percent are at risk.
    These grim statistics add a note of seriousness to these 
hearings that we hold today, but they also lend a sense of 
purpose for what we have to do. The task before us is not just 
a routine exercise. We do not undertake this simply because the 
reauthorization expires, but because people across this country 
are sorely in need. We go forward on this reauthorization 
because people across this country are suffering and because we 
all have a responsibility to act.
    I look forward to hearing from our witnesses today about 
how this committee can carry out its responsibility in this 
regard, especially in light of the new USDA report. But before 
we do, I would like to outline three priority areas that I 
think can serve as guiding principles for the reauthorization 
before us.
    First, we must take steps to ensure that all children 
eligible for Federal Child Nutrition Programs are actually 
receiving them. The number of children that are eligible and 
unenrolled is astonishing. Despite the fact that programs such 
as the School Lunch and School Breakfast Programs have been 
around for decades, there remain many children who could be 
participating but do not. A critical part of what we have to do 
is to ensure that they can access these programs and that they 
do.
    Second, we must improve the nutritional quality of the meal 
benefits provided through our Child Nutrition Programs. 
Ensuring that children have enough to eat should be a hallmark 
of a fundamentally decent society. But with obesity and 
diabetes and nutrition-related chronic diseases epidemic among 
us, we must not stop at just filling their bellies. We must 
also take steps to provide foods that nourish and promote the 
development of our children. Not only does it make sense in 
terms of quality of life and what it is we are trying to 
provide, it also is cost effective. Think of their abilities to 
have better health care down the road with more nutritious 
meals and exercise. Think of what it means in terms of their 
learning capacity and their abilities to learn in school and 
excel to their greatest of potential.
    Third, we must modernize and improve the integrity of Child 
Nutrition Programs. We have a WIC Program that, for the most 
part, still relies on paper coupons even as most of our Federal 
programs, like the SNAP Program, have entered the electronic 
age by transitioning to electronic benefits. Even my mother got 
rid of her rotary dial telephone. We have got to move forward.
    In the School Lunch Program, elementary school children 
carry paper applications in their backpacks, and then we wonder 
why some applications never make it back to school. Folks, I 
clean out those backpacks once a night. They are full of 
paperwork and all kinds of things, whether it is homework that 
has been there and back again or whether it is multiple pieces 
of paper that children are sent home with for authorization 
from parents to walk-a-thons for the homeless to a number of 
other things. Some of them never reach parents. Some of them 
never make their way back to school. These are the 
circumstances that prevent our children from receiving those 
School Lunch benefits. Surely we can do more to bring these 
programs into the 21st century, with benefits for both children 
and for program operators alike.
    With these principles in mind, I look forward to the 
testimony of our very qualified witnesses today. I look forward 
to building upon the good work that this committee has already 
done under the leadership of Senator Harkin and Senator 
Chambliss and along with their incredibly capable staff and our 
incredibly capable staff today who continue to work on this 
issue with great passion and certainly with great energy in 
moving us forward.
    I would like to now, if it is appropriate, yield to my good 
friend and colleague from Georgia, Senator Chambliss.

STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Chambliss. Thanks very much, Madam Chairman, and 
thanks for holding this hearing. I would like to join you in 
welcoming Secretary Vilsack back to our committee. Tom, it is 
great to see you.
    I am pleased we will have the opportunity to hear from the 
administration about its priorities for reauthorization of 
Child Nutrition Programs. Our country is fortunate to have a 
strong nutrition safety net comprised of 15 different Federal 
nutrition programs, but it is important that Congress reexamine 
them on a regular basis to make sure they are as effective as 
possible in serving Americans in need of nutrition assistance.
    Due to the current economic downturn, we are seeing 
unprecedented levels of participation in Federal nutrition 
programs. Over 36 million people are currently participating in 
the Supplemental Nutrition Assistance Program each month, which 
is the highest number in the program's 40-year history. In my 
own State of Georgia, we have seen participation increase to 
over 1.4 million Georgians, which is almost 15 percent of the 
State's population, and Mr. Secretary, I am going to be curious 
to hear how that corresponds to other participation around the 
country, because I am sure there are unprecedented levels at 
which we are seeing in all 50 of our States. The fact that the 
SNAP program can swiftly serve those in need highlights one of 
the program's key features: The fact that it can easily expand 
and contract as economic condition change.
    Schools are also realizing increased participation in the 
National School Lunch and Breakfast Programs, with expenditures 
for 2010 likely to exceed $16.8 billion. The caseload for the 
Women, Infants, and Children Program is also expected to rise, 
and I am pleased that the 2010 Agriculture appropriations bill 
funded the program at $7.25 billion to meet the potential 
demand.
    I look forward to hearing from today's witnesses. We all 
agree that our Federal nutrition programs are not only 
important tools to combat hunger in the United States, but also 
effective tools to promote a healthy lifestyle and combat 
obesity.
    Regarding the National School Lunch and Breakfast Programs, 
the Institute of Medicine recently released a report with 
specific recommendations to USDA on how to update the 
nutritional requirements of the meals, calling for more fruits, 
vegetables, and whole grains. I look forward to USDA issuing a 
proposed rule on how best to implement the IOM's 
recommendations to ensure that school meals meet the dietary 
guidelines for Americans.
    It is important to recognize the progress many schools have 
made since the 2004 Child Nutrition Reauthorization to improve 
the quality of meals served throughout the National School 
Lunch Program, as well as the nutritional environment 
throughout school campuses. Partnerships between schools, food 
companies, and the public health community have demonstrated 
various approaches to offering healthy foods in schools as well 
as increasing physical activity opportunities.
    One specific example is the Clinton Foundation's 
partnership with the Alliance for a Healthier Generation, which 
has effectively helped thousands of schools across the country 
create environments where physical activity and healthy eating 
are accessible and encouraged. We need to acknowledge the 
investment of time and resources in making these changes, as 
well as recognize that a one-size-fits-all approach may not be 
in the best interest of our schools or our children.
    Another program that I want to applaud is USDA's Healthier 
School Challenge. I am very pleased that Secretary Vilsack 
recently announced that the Challenge will now be open to 
middle and high schools. Three Burke County public schools in 
Georgia recently achieved the goal level of the challenge, and 
I am impressed with the dedication of the School Food Service 
Director and school leadership for their commitment to ensuring 
a healthy and nutritious school environment.
    Again, Madam Chairman, thank you for holding this hearing. 
I look forward to the input of today's witnesses as we move 
forward with the reauthorization of the Child Nutrition 
Program. Thank you very much.
    Chairman Lincoln. Thank you, Senator Chambliss.
    We would like to welcome to the committee Secretary 
Vilsack. I note that he is joined by two other Iowans today on 
the committee, so we have got the whole State well represented, 
and that is a good thing. I would just like to say how much we 
appreciate Secretary Vilsack and all of your leadership as a 
past Governor, without a doubt, but also from my standpoint, 
the unbelievable passion that you have for rural development, 
particularly coming from your roots in small communities in 
which you provide a great leadership.
    So we are delighted to have you here. I don't think there 
needs to be much more introduction, other than the fact that we 
look forward to working with you on really this very big 
challenging issue to us and to our nation. Thank you, Mr. 
Secretary, for being here.

 STATEMENT OF HON. TOM VILSACK, SECRETARY, U.S. DEPARTMENT OF 
                  AGRICULTURE, WASHINGTON, DC

    Secretary Vilsack. Madam Chair, thank you, and to Senator 
Chambliss and the members of this committee, thank you for the 
opportunity to discuss the pending reauthorization of the 
Department of Agriculture's Child Nutrition Programs.
    One of the first items that President Obama discussed with 
me when I was first selected for this job was that one of his 
top priorities for USDA was to provide children with healthier, 
more nutritious meals. I pledged then and continue to uphold 
that pledge that USDA will do everything it can to support the 
health of our children and the health of the school environment 
in thousands of schools across the country.
    The upcoming effort to reauthorize the Child Nutrition 
Program is a major opportunity for us to advance a number of 
key priorities for our children, and I appreciate the chance to 
appear before this committee to discuss the need for this 
legislation and some of the administration's key priorities.
    The reauthorization of the Child Nutrition Programs 
presents us with an important opportunity to combat hunger, to 
improve the health and nutrition of children across the nation, 
and to enhance program performance. The scale of these programs 
means that reforms can have a major impact on tens of millions 
of school children. For instance, the National School Lunch 
Program serves 31 million school children in more than 102,000 
schools across the country. The School Breakfast Program is 
available is over 88,000 schools and serves 11 million children 
on a daily basis. In addition to the National School Lunch 
Program and School Breakfast Program, the authorities to 
operate the Summer Food Service Program, the Child and Adult 
Care Food Program, the Special Milk Program, and the WIC 
Program all come up for renewal this year.
    The Obama administration takes this opportunity very 
seriously. In the fiscal year 2010 budget, the administration 
proposed an historic investment of $10 billion in additional 
funding over ten years. The problems that we face and are 
challenged today to address through this reauthorization 
process are significant and critical to the future of this 
country.
    At the same time, we are facing a continuing problem for 
some families being able to provide their children with enough 
to eat. As the Chair indicated, yesterday, the Department 
released a sobering report entitled, ``Household Food Security 
in the United States 2008,'' showing that in over 500,000 
families with children in 2008, one or more children simply did 
not get enough to eat. They had to cut the size of their meals, 
they had to skip meals, or even go whole days without food at 
some time during the year. This is simply unacceptable in a 
nation as wealthy and as developed as the United States.
    This legislation is an opportunity in one stroke to 
confront both the challenges of obesity and hunger, with the 
prospect of better health and well-being for our children in 
the years to come. Investing in meal quality and access to 
these critical programs will help support the capacity of our 
young people to learn and acquire the tools necessary to become 
the leaders of tomorrow.
    We can improve access to meals and explore new ways of 
empowering communities to reduce food insecurity and hunger, 
especially among children. We can make every school a place 
where nutrition and learning shape the food offered by 
improving food standards, eliminating foods that do not support 
healthy choices and expanding physical activity opportunities.
    We can help pregnant women, new mothers, and the youngest 
children receive the support they need for optimal healthy 
starts and supporting working families using child care by 
providing nutritious food for their children and help them deal 
with the challenges of today's economy.
    Beyond these food security, nutrition, health, and learning 
objectives, the reauthorization is an important opportunity to 
promote economic development and a robust farm and food 
economy. The Child Nutrition and WIC Programs are significant 
outlets for the bounty of American farmers and ranchers. Each 
year, USDA purchases approximately $1.5 billion of healthy 
foods through its Commodity Distribution Program. These 
purchases help support the entire agricultural value chain, 
from growers to packers, shippers, manufacturers, to retailers.
    The legislation is critical, not only for the nutrition, 
but for health promotion, educational opportunity, and economic 
development. For these reasons, I want to share the Obama 
administration's top priorities for this legislation and 
express my commitment to work with this committee to pursue a 
robust reauthorization that advances these key priorities.
    There are two main priorities that I will briefly discuss 
this morning, reducing barriers and improving access, and 
enhancing the nutritional quality and health of the school 
environment. Improving program performance is also important to 
us, and we will be attentive to that goal throughout the 
reauthorization process.
    For many children in our programs, school lunch and 
breakfast represents the only healthy food they may eat all 
day. We must work to ensure access to nutrition assistance for 
children when and where they need it, particularly during the 
gap periods when we know children struggle to receive the 
nutrition they need, during the summer months, during 
breakfast, and in after-school environments.
    We also need to expand the School Breakfast Program. 
Healthy days begin with healthy breakfasts. Many teachers 
report that they can tell which of their children started the 
day with a healthy breakfast and which did not. While 100,000 
schools offer lunch, only 88,000 offer breakfast, and about 
one-third as many children receive school breakfast as 
participate in the lunch program on an average day.
    To increase the number of schools offering breakfast and 
the participation of children in the program, we need to look 
for ways to support improvements in the nutritional quality of 
the school breakfasts, as well. To expand participation in 
school meals more generally, we must find and test innovative 
approaches and determine their effectiveness in addressing 
hunger among children, including modifications to accounting 
and claiming processes in very low-income areas. Support should 
also be provided to communities and States committed to ending 
the scourge of hunger. And support should be provided to direct 
certification efforts that automatically enroll eligible 
children in these programs.
    The Department looks forward to using the $22 million 
provided in the Direct Certification Grants Program recently 
approved in the Agricultural appropriations bill to encourage 
States to enhance their existing direct certification systems 
with new technologies or borrow ideas from States with 
demonstrated direct certification success.
    We also look forward to expanding support for 
breastfeeding, the medically preferred feeding practice for 
most infants in the WIC Program, especially through expansion 
of peer counseling programs.
    We must do everything we can to improve the nutritional 
quality of school meals and the health of the school 
environment, our second priority. The recent Institute of 
Medicine report showed that the average American child between 
the ages of five and eight consumes about 720 empty 
discretionary calories per day, nearly half their total diet of 
about 1,600 calories a day. Our young people are eating far 
less dark green and dark orange vegetables than they need, far 
fewer fruits than they need, far more refined grains and far 
too few whole grains, and far too many high-fat dairy products 
and too few low-fat and non-fat dairy products. We can and must 
do better.
    Additional support should be provided to train food service 
professionals so they have the skills to serve top-quality 
meals that are both healthy and appealing. We need to expand 
the current requirements of the Food Safety Program to all 
facilities where food is stored, prepared, and served. Every 
parent knows that encouraging children to try new foods can be 
challenging, but because children are developing preferences 
and practices that will last a lifetime, it is especially 
important that we recognize and support the role that school 
food service professionals play in serving foods that 
demonstrate that a healthy diet can be tasty and fun. But our 
approach can also reflect the critical role that the whole 
school environment plays, not just the lunch room. We need to 
promote healthy lifestyles and combat obesity throughout the 
school.
    Not only should USDA establish nutrition standards for 
school meals, but we should set national standards for all 
foods sold in schools, including in the a la carte lines and in 
vending machines, to ensure that they, too, contribute to a 
healthy diet. This step is long overdue and critically 
important to enhancing the health of the school environment. 
And we need to strengthen school wellness policy implementation 
and promote physical activity in schools.
    But to be truly successful in making our schools a 
healthier environment, we need more input from parents and 
communities and we need their help. More information must be 
provided to American parents on the performance of schools so 
they can make choices for their children and take action to 
make schools improve. We recommend that schools be required to 
share information about the content of their meals with the 
families that rely upon them, and we should work with 
stakeholders to develop and communicate common nutrition 
messages and provide materials in support of those messages.
    Lastly, we should continue to advance the public trust by 
investing in the school meal performance. Through technology 
and training, we can reduce and should reduce error rates and 
result management challenges in a way that serves our children 
and the general public well.
    Several weeks ago, through the passage of the Agricultural 
appropriations bill, Congress made an important first step 
toward accomplishing these goals. Thanks to the leadership of 
the Chair, Senator Chambliss, and Senator Harkin, and Chairman 
George Miller, we were able to improve children's access to 
meals during the summer, help enroll more children in the 
School Lunch Program, and improve health and nutrition in child 
care settings. I view this as an important downpayment on the 
priorities mentioned above.
    I hope you will look at all these opportunities for 
improving the health and well-being of America's children as 
you consider legislation to modernize these programs. Just as 
teachers inspire and parents encourage our children, we must 
have healthy food that is available to help those future 
generations grow and learn. The President, the First Lady, and 
I are committed to combating hunger and providing healthier 
foods to our nation's children and I hope we will have your 
support in these efforts.
    Again, I would like to thank the committee for the 
opportunity to appear before you this morning to discuss the 
reauthorization of the Child Nutrition Programs and I look 
forward to answering questions you may have this morning. Thank 
you, Madam Chair.
    [The prepared statement of Hon. Thomas J. Vilsack can be 
found on page 89 in the appendix.]
    Chairman Lincoln. Thank you, Mr. Secretary. We are pleased 
that you are here. We do look forward to not only working with 
you to get this done, but get it done in a timely way in order 
to make sure that we get the full benefit of this program out 
into our schools and into our communities where our children 
need it, without a doubt.
    I will start off with a couple of questions and turn to my 
colleague, and then start in the order of arrival with other 
members for opening statements and any questions that they may 
have.
    Secretary Vilsack, there has been considerable discussion 
about the need of additional funding to increase reimbursement 
in the National School Lunch Program and the School Breakfast 
Program, especially in light of the recent Institute of 
Medicine's recommendation for new meal standards, which will 
likely increase cost, as well. And I am certainly sympathetic 
to the concept of increased reimbursement rates. Common sense 
does tell us that as we improve that quality, it also increases 
the cost.
    But I also want to be certain that if the committee does 
recommend an increase in reimbursement rates, that we are 
certain to be buying the outcomes that we want in terms of both 
meal quality and efficiency, and I think that is going to be 
really critical. Should the committee provide that additional 
funding for reimbursement rates for school lunches and 
breakfasts, do you have any idea as to how we can ensure 
quality? Does it make sense to provide for reimbursement rate 
increases that are conditioned on certain quality factors, is 
that an option? Or how do we go about that, in your opinion?
    Secretary Vilsack. Madam Chair, this is an important issue. 
I think you have mentioned the fact the Institute of Medicine's 
report did reflect that their recommendations would carry with 
it additional costs. I think it is appropriate to note that it 
will take us some time to institute the recommendations of the 
Institute of Medicine, and during that period of time, we are 
going to continue to encourage schools to look at the 
nutritional content and value of the meals that they are 
providing.
    I think it is important for us to reward top performers, 
look for ways in which we can work with the Secretary of 
Education and the Department of Education to reward 
performance. So we would encourage this committee and the 
Congress to take a look at reimbursement rates that would be 
linked directly to increased nutritional value in the form of 
more fruits and vegetables, more whole grains, less fat, less 
sodium, less sugar, transferring to low-fat dairy products, 
things that were recommended by the Institute of Medicine.
    We know what we need to do. In addition, we also should 
take a look at increasing physical activity in our schools. It 
is a troublesome statistic to me that approximately one-third 
of high schools in this country are working at the recommended 
physical education level and just about half of our students in 
the country today actually have access to physical education. 
So I think there are many ways in which we can encourage 
healthier environments.
    Chairman Lincoln. Well, I agree, just having met with a lot 
of our school lunch folks in a symposium that was hosted by the 
Heifer International Project on the Farm to School Program, and 
talking to some of those food service people who were 
enormously grateful for the additional funding, because they 
have been using 40-and 50-year-old equipment. And one of the 
women said steaming vegetables for 300 or 400 kids one pot at a 
time is not very efficient or effective. She said, all we have 
got is frying equipment from 30 years ago. Making sure that 
they have got the kind of facilities and equipment they need to 
be able to help prepare those foods, I think is going to be 
critical, and I am pleased that we have gotten started with 
that as we created our extension.
    The School Breakfast, program is such a critical program. 
Growing up on a farm, it is instilled in you that probably the 
most important meal you get during the day is to get off with a 
good start on breakfast. One of the things that I think holds a 
great deal of promise is some of the new methods for providing 
breakfasts in school. I know with 13-year-old boys, getting 
them up extra early to go to school is not a pleasant thing and 
oftentimes doesn't work with school children, trying to get 
them to the cafeteria before school starts. They would rather 
spend that extra 15 minutes in bed, and I am sure other 
children are the same way.
    Has USDA looked into some of the different methodologies 
and assessed their effectiveness in reaching more children? I 
know there have been some suggestions experimenting with Grab 
'n' Go Breakfast Bags or breakfast in the classroom or other 
things like that.
    Secretary Vilsack. Madam Chair, we are constantly looking 
for ways and opportunities to encourage an expansion of School 
Breakfast. As I mentioned in my opening statement, we are still 
short of the number of schools that actually participate in 
this program and we would obviously encourage those that don't 
participate to do so.
    We are open to suggestions to best practices. I think one 
of the responsibilities USDA has in this area is to be able to 
identify where best practices, where participation rates are 
high, where teachers report to us an appropriate environment 
where youngsters are active and energized early in the morning 
as a result of having a healthy breakfast.
    We have done some research, as you probably know, in the 
past on whether or not a universal breakfast system would work. 
There are some concerns about mandating this, but I think there 
are ways in which we can identify--there are schools, Kevin 
Concannon was sharing with me earlier today, the Under 
Secretary, about how he was in a school in Colorado that was 
essentially having school [sic] in the classroom, which made it 
a little easier for youngsters, especially youngsters who may 
be a little bit young, to know how to access the food. If it is 
in the classroom, it makes it easier and more convenient. So I 
think there are ways in which we can look for opportunities for 
expansion.
    Chairman Lincoln. Well, I look forward to working with you, 
and I have got a few more questions I will save for later and I 
will turn to my colleague, Senator Chambliss.
    Senator Chambliss. Well, thanks, Madam Chairman.
    Mr. Secretary, I am very pleased to hear you talk in terms 
of parental involvement in exercise in addition to just our 
diet, because there is no question but what this has got to be 
an integrated force if we are going to be successful in making 
sure that our children are healthy, which includes dealing with 
the issue of obesity. There are other reasons besides that why 
they need parental involvement in exercise. Having a wife who 
taught for 30 years in the classroom, parental involvement is 
so critical in the educational phase that without it, students 
have a much tougher time. But it is tough to get them involved 
in a lot of instances.
    I look forward to dialoguing with you about how, from a 
nutrition standpoint, we can engage parents, and by doing that, 
and vice-versa with education, maybe we can kind of dual track 
that. The more involvement parents have, the healthier the kids 
are going to be and the better education they are ultimately 
going to get.
    Congress has considered the issue of Federal standards for 
food sold in competition to the meals provided through the 
National School Breakfast and Lunch Program for a number of 
years and there are still several policy issues that obviously 
remain unresolved. You recommend a, quote, ``national baseline 
standard for all food sold in elementary, middle, and high 
schools,'' and I would like for you to elaborate on that 
recommendation a little bit. Are you talking, Mr. Secretary, 
about individually standardizing items in vending machines or 
in a la carte lines, or an overall program, and really, how are 
we going to define that? What is your thought about how we can 
enforce that?
    Secretary Vilsack. Well, Senator, I think it starts with 
the wake-up call that the Institute of Medicine's report 
suggesting that we have some serious issues with the quality, 
nutritional quality of what is taking place in our school lunch 
programs. But the concern that I have is that we could do 
everything we need to do on the school lunch line and it could 
be countermanded or counteracted by what we do or what we don't 
do with reference to vending machines and things that are sold 
in the school during the school day.
    So I think it is incumbent upon us to work with schools to 
create standards that basically define the nutritional value of 
things that will be sold. We have seen schools that have sort 
of transitioned, and we have been working with the industry, 
the food industry, with the beverage industry, that recognize 
the need to be responsible and are anxious to work with us in 
making sure that those vending machines have appropriate 
content. We know that youngsters will continue to purchase. We 
are not concerned about substantial reductions in school income 
because the vending machine content changes.
    But we think it is important for us to lay a marker, to lay 
down what we think the nutritional value ought to be and then 
work with schools. Obviously, as this goes through a rulemaking 
process, we will receive comments. We will receive information 
from experts. But the bottom line is for us to make a statement 
that we want our school environments to be healthy, and to do 
that, it is going to require not just focusing on more fruits 
and vegetables in the school lunch line and more fruits and 
vegetables, et cetera, during the Breakfast Program, but it is 
also going to take a look at vending machines.
    Senator Chambliss. I have heard from a number of my food 
banks around my State about the increase for demand of items in 
the respective food banks, and obviously that increased demand 
includes families with an awful lot of children. I want to 
commend you on the job that USDA has done in meeting that 
increased demand, and again, that compliment has come from the 
food bank directors themselves. USDA has done a very good job 
of addressing this increased demand.
    That does bring on other issues, though, when we see this 
population increase. Can you share with the committee how you 
see the outlook for ongoing levels of USDA food and financial 
support for emergency food providers and give us an idea of 
where you think we are headed there? What kind of time line are 
you anticipating that increased demand?
    Secretary Vilsack. Well, Senator, I think it is obviously 
tied to the health of the economy. It is my----
    Senator Chambliss. I was hoping you had a good, solid 
projection, Tom, that we could look at.
    Secretary Vilsack. I will tell you, just from a USDA 
perspective, we are encouraged by the number of grants, loans, 
business activity in our rural development portfolios. As a 
result of the Recovery and Reinvestment Act, we know that there 
are a significant number of infrastructure projects that are 
going to result in construction and employment opportunities in 
2010 and we are encouraged by the participation, the interest, 
the capacity to move resources out at USDA. So I am hopeful 
that we will begin to see a leveling off of this rather steep 
increase. But it is clearly tied to the health of the economy.
    Fortunately, the Congress had the wisdom to include in the 
Recovery and Reinvestment Act more resources for SNAP, more 
resources for food assistance, and the reason I say that is 
that there is probably no more direct immediate stimulus than 
the resources that you are providing through SNAP.
    Ninety-seven percent of those resources are actually 
invested within 30 days. In other words, people actually 
utilize those resources immediately. And if you think about it, 
when they use those resources, it means something more is being 
purchased at the grocery store. Somebody has got to stock that, 
which means that you can keep your job at the grocery store. 
Somebody has got to truck it, which means somebody keeps their 
trucking business open. Somebody has got to process it, which 
means those processing facilities are still operating and 
employing people. And someone has got to produce it, which 
means the farmers and ranchers ultimately receive the benefit.
    So it is important for people to recognize the economic 
development component of food assistance. This isn't just about 
human services. It isn't just about the moral responsibility we 
have. It is actually good economics in tough times.
    So we attempted to try to get these resources out as 
quickly as we could. We saw a tremendous demand. And we will 
continue to work hard with the States. I will say that we have 
to acknowledge the activity of State governments, Governors, in 
helping us administer these programs effectively.
    Senator Chambliss. Are you comfortable with where you are 
resource-wise with respect to the anticipated continuing 
demand?
    Secretary Vilsack. Well, I think our focus, Senator, is 
making sure that we have adequate resources to be able to 
expand programs that currently, in our view, are underutilized. 
We have still youngsters today that don't participate in the 
School Lunch and School Breakfast Program that need the School 
Lunch and School Breakfast Program, which is why we are 
suggesting additional resources and improvements in how people 
qualify and how people can become eligible for these programs. 
We are looking for ways to remove the stigma that is sometimes 
associated with participation in these programs so that more 
people participate.
    Our focus obviously is on the children of this country. I 
find it, and I know you do, too, troublesome that when the 
report was issued yesterday that over a million children every 
day are faced with low food security, which is skipping meals, 
not having sufficient nutrition, and we can't expect those 
youngsters to perform at their optimal level as students if 
they are not well fed and well cared for.
    Senator Chambliss. Lastly, for several years, USDA has 
worked very closely with the Department of Defense to 
distribute fresh fruits and vegetables to schools around the 
country. In recent years, DOD's Fresh Program has made changes 
to its procurement and distribution process and there have been 
concerns raised about the results of these changes, such as 
higher prices and inconsistent deliveries. While these concerns 
have been voiced only in certain pockets of the country, I 
wanted to bring this issue to your attention. While previous 
farm bills have mandated that USDA partner with DOD for the 
distribution of produce, the most recent farm bill gives us 
USDA the flexibility to consider other distribution partners if 
they are needed.
    I don't have a question about this, I just wanted to 
highlight it with you. I am going to submit some questions to 
you and I look forward to getting your answers to see how we 
can address this further down the road.
    Secretary Vilsack. Senator, we will take a look at those 
questions and answer them promptly. We are currently purchasing 
60 different varieties of fruits and vegetables under that 
program. Obviously, if there are problems in distribution, we 
need to address them.
    Senator Chambliss. Thanks, Madam Chairman.
    Chairman Lincoln. Thank you. Just for the members' 
knowledge, I think there are going to be either two or more 
votes called at 11:15, unfortunately, so we will try to keep 
our hearing going.
    We go to Senator Harkin, and I would just like to take a 
personal privilege and say thank you for all your hard work on 
this issue and handing over a committee that is certainly well 
versed and well equipped to deal with this. So thank you, 
Senator Harkin.
    Senator Harkin. Madam Chair, thank you very much, and thank 
you for your leadership on this and always working together to 
try to move this child nutrition bill.
    I also want to thank our Ranking Member, Senator Chambliss, 
for his longtime and continuing interest in the area of child 
nutrition.
    I just ask that my statement be made a part of the record.
    [The prepared statement of Hon. Tom Harkin can be found on 
page 54 in the appendix.]
    Senator Harkin. You know, there is a lot of debate going on 
and now we are all getting wrapped around the axle on health 
care reform around here, but it seems to me that the essential 
underlying feature of having a healthy country is having 
healthy kids. If we are going to change all this system of how 
we are paying the bills and yet we have got a whole cohort 
coming along that are overweight and obese and have diabetes 
and high blood pressure, we are going to go broke.
    So it seems to me we have really got to focus in this area, 
and I want to commend our Secretary of Agriculture for again 
focusing on this, not just as Secretary, but before when, as 
Governor of the State of Iowa and as a former State Senator, 
this has been an area, I can tell you, of Tom Vilsack's focus 
and interest for a long, long time. So I am glad we are kind of 
coming to this point where this committee and the Department 
and administration are working together to really move the ball 
forward in great ways in terms of child nutrition.
    But I can't resist the opportunity at times like this to 
always ask the fundamental question that I keep asking over all 
these years. If schools are places we send our children for 
education, why do we have vending machines in schools? Tell me 
again, why are there vending machines in schools? There weren't 
vending machines when I was young. I mean, there were vending 
machines, just not in schools. I am not that old.
    [Laughter.]
    Senator Harkin. We just didn't have them in schools. I 
followed this and watched this happen, and then a la carte 
lines and sales of foods. Mr. Secretary, you said it best. You 
said children are subject to innumerable influences in their 
environment. As they develop preferences and practices that 
will last a lifetime, their choices are shaped by their 
surroundings, at home, in school, and their wider community. 
The school nutrition environment is a powerful influence in 
this regard. Accordingly, the administration recommends setting 
higher standards for all foods sold in school. You stated that 
earlier.
    What good does it do for the Secretary to have jurisdiction 
over the food in the lunch room when the kids can go right down 
the hall and put their money in vending machines and get 
whatever they want, or they can go to a snack bar someplace or 
that kind of thing?
    So I think we have to ask--I always ask that fundamental 
question. Why do we have vending machines in schools? It seems 
to me that we got off track. We got off track by providing an 
easy, easy access to kids for high-sugar, high-fat, high-salt 
type of foods. It seems to me that we need to recommit 
ourselves to having schools be commercial-free zones for kids--
commercial-free zones, where they are not inundated with all 
the commercials. It is almost like our schools are becoming 
like little minor strip malls where kids have easy access to 
some of the worst foods. So this fundamental question of why we 
allow this.
    And then, again, the Secretary of Agriculture should have 
the authority, and that is what my bill does, and I am 
grateful, Madam Chair, for your support of the bill, and we 
have 30-some cosponsors on both sides of the aisle on this. I 
think the time has come to give the Secretary that kind of 
authority so that we have a standard. We look to the IOM, we 
get scientific-based data, and let the Secretary have that 
authority.
    One question I had, Mr. Secretary, was sort of asked by 
Senator Chambliss. He talked about the additional funding and 
stuff. But there is another thing. We have seen some schools in 
this country where they have changed the way they prepare 
foods. They use locally-grown foods and they deliver healthier, 
more nutritious foods and the cost increment is not any more 
than buying the packaged foods. It is just a different way of 
doing things.
    I use the example in our State of Cedar Falls, where they 
have shown that they can prepare very healthy, nutritious meals 
that kids like. It is not just a glump of something put on a 
plate. And they have kept their costs down very comparable with 
what they get with packaged meals.
    I guess the only thing I would ask from you is, is the 
Department looking at examples, and I am sure there must be 
examples in other States and places where schools are 
experimenting with ways of preparing local foods, yet keeping 
the costs down?
    Secretary Vilsack. Senator, we are, and in fact, we are 
putting together as part of our Know Your Farmer, Know Your 
Food Initiative a set of tactical teams from the USDA that are 
going to go out and educate school districts and food service 
officials with what is available in the locality where their 
school district is located. Oftentimes, there is a disconnect 
between what is available and what people know is available, 
and those tactical teams will encourage local production and 
local consumption and creating the link.
    We are also going to use some of our rural development 
resources to try to create the supply chain that in some cases 
does not yet exist, but if it did, schools could access those 
foods more easily and less expensively. So that is part of our 
Know Your Farmer, Know Your Food Initiative.
    Senator Harkin. Great. One last thing. Next year, on the 
other committee on which I sit, we are going to reauthorize the 
Elementary and Secondary Education Act. That is the Department 
of Education. I know you are working closely with Secretary 
Duncan. I encourage you to keep that up. We have got to meld 
these two together, this bill, Madam Chair, that you are going 
to lead on school nutrition and the Elementary and Secondary 
Education Act to get exercise and more time for our kids in 
school to exercise. So I encourage you and Secretary Duncan to 
continue to work together to put these together as a package.
    Secretary Vilsack. Well, I have appreciated the partnership 
that we have. I think both Secretary Duncan and I believe that 
we need to reward good performance and this is certainly part 
of it. As I said before, I am a little bit distressed by the 
statistics that suggest that so little physical activity takes 
place in many of our schools. It is an issue of time, but it is 
also an issue of understanding the importance of it and how it 
leads to better academic performance.
    Senator Harkin. Thank you, Mr. Secretary, thank you Madam 
Chair.
    Chairman Lincoln. Senator Lugar.
    Senator Lugar. Thank you very much, Madam Chairman.
    Let me just follow up on Senator Harkin's thinking. There 
was recently a report offered by a military group in Washington 
which indicated that because of poor education, poor nutrition 
and obesity, essentially physical ailments in addition, 75 
percent of Americans 17 to 24 years of age would be ineligible 
to serve in the Armed Forces. That is a huge number, three-
quarters. Mind you, this covers all three of the Departments 
that you have recently mentioned are going to be coordinating, 
you with Secretary Sebelius and Secretary Duncan.
    I would just underline the importance of this in a recent 
visit I paid to Warren Township's school in which a number of 
students have not done well have been brought back into the 
system, about 280 people. They have combined that with a 
community health center which literally serves as an emergency 
room for the community. They have combined that with the school 
feeding programs so that the health side of it as well as the 
nutrition and the education are combined. It is a remarkable 
exercise, and I am certain there are other examples of this 
around the country.
    But I mention that it is not impossible to do what you 
three Secretaries are thinking about. What I am wanting to 
inquire today is how are your preparations going? In other 
words, what are the physical elements of this cooperation? Do 
you have a steering committee? Do you have a group of people 
that gather together from time to time in addition to you as 
Secretaries? In other words, what can we look at in Congress to 
follow in all of our committees, whichever they may be, which 
may be elements of this coordination so that American youth are 
not only prepared to serve in the military, but prepared really 
to serve as citizens, parents, and what have you?
    Secretary Vilsack. Senator, first of all, let me comment on 
the fact that you and your staff provide a good example. I 
understand you have got a fitness activity that you participate 
in with your staff and it is something I think many of us 
should follow.
    One of the great opportunities that we have is the 
leadership of the First Lady on this particular issue. I have 
been joined by her on a number of occasions where she has 
indicated that this is a priority for her. It is obviously a 
priority for the President, as well. And she within the White 
House is creating an opportunity for us to meet on a regular 
basis to take a look at how we can--for example, Senator 
Chambliss mentioned the Healthier U.S. School Challenge--how we 
can encourage more than the 600 schools that are currently 
acknowledged as part of that challenge to participate? And as 
you know, that involves that combination of better diets, 
better nutrition in the school environment, as well as physical 
activity. The First Lady wants to be able to acknowledge 
schools that meet that challenge. That is a good way of getting 
the word out about the importance of this.
    We need to continue to look for ways in which we can 
provide best practice information to school districts that are 
interested in this, and so there is a coordinated effort within 
the White House where you have multiple agencies working and 
involved on this, and we are absolutely committed to it, make 
no mistake about it. This is one of the top priorities that I 
have identified for the USDA.
    Senator Lugar. Well, that is very encouraging, and I am 
hoping there are some metrics that can be devised that show how 
much progress is occurring.
    Secretary Vilsack. Well, that is an interesting challenge, 
because we are trying to determine precisely what the right 
metric is. Is it time? As you know, the NFL is currently 
working to promote its Play 60 Initiative, which we are very 
interested in working with them to encourage that. Is it 
reducing the levels of obesity, and if so, how is that defined?
    I will tell you that it isn't just in the school 
environment that we need to be concerned about this. If you 
take a look at early childhood statistics, a very troublesome 
trend zero to five in terms of obesity, as well. So there are 
also efforts that have to be taken in early childhood, which is 
why the Department is partnering with Sesame Street and other 
programs to do PSAs and ways in which we can encourage young 
parents to understand what they can do to make it better. So 
there are an awful lot of partnerships.
    We are currently dealing with the metric issue. I don't 
know that we have an answer today, but we are aware that we 
have to have a metric by which to determine success or failure.
    Senator Lugar. My second line of questioning is the goals 
that you have expressed in your opening statement and that many 
members of the committee would reinforce with regard to things 
we ought to be doing in child nutrition. By and large, 
expansion of these programs is expensive. It carries some 
fiscal responsibility. I am just curious, as we reauthorize the 
programs, have you been able to work through the budget process 
to determine whether we can pay for them or what the prospects 
are of this?
    This is not a new question. Each time around, 
reauthorization comes and there are annual appropriations and 
what have you. And sometimes even within the Agricultural 
budget, there are--I wouldn't say battles, but disputes as to 
where the money ought to go, whether in terms of crop subsidies 
or conservation or all sorts of other good things that we do. 
But what is the prospect for the financing of the goals that 
you have suggested today?
    Secretary Vilsack. Senator, I think it is important to 
focus when you are dealing with the issue of costs and 
affordability of what the cost of inaction and inactivity might 
be. I think Senator Harkin put his finger on the cost long-
term. If we fail to address this issue aggressively now, we 
will clearly, clearly pay for it in significant increases in 
health care expenditures in the future. So that is the first 
thing.
    Secondly, I think it is incumbent upon us to continue to 
look at ways in which we can utilize the resources that 
Congress has provided to us in more efficient ways, and we may 
be able to come up with a suggestion or two about how that 
could be done. But I think it is important for this committee, 
if I respectfully could say this, to really raise the level of 
appreciation for the importance and priority of this issue.
    If you combine the hunger issue with the obesity issue, 
with nutrition and food safety, I think we are at a tipping 
point in this country and hopefully in this Congress to take 
all of these matters to a different level. And when you take 
them to a different level, they become a significant priority. 
And as you well know, Senator, from your experience, you fund 
your priorities. You fund your priorities. I believe this ought 
to be a priority.
    Senator Lugar. I admire your leadership and we will support 
what you want to do here. I just as a practical matter say 
there will come a time when choices will have to be made by 
this committee as well as our appropriation types and it will 
be important for us all still to be on board at that stage. 
Thank you very much.
    Chairman Lincoln. Thank you, Senator Lugar.
    Senator Stabenow.
    Senator Stabenow. Well, thank you, Madam Chair. First, I 
want to congratulate you on your new position and on picking 
such an important topic for the first hearing of your 
Chairmanship, and also to thank Senator Harkin for his 
wonderful leadership over the years. But I very much appreciate 
your leadership, Madam Chair, and also the priorities that you 
laid out for us in terms of this bill, which I think are very 
important and welcome.
    Secretary Vilsack, it is always great to see you.
    I did want, within the priorities that the Chair has laid 
out, to speak about an additional piece of this in addition to 
breakfast and lunch which is after-school or supper programs. I 
am very pleased that Senator Lugar has joined with me as well 
as the Chair and Senator Brown, and I know there will be 
support from other members of the committee, as well, for an 
After-School Meals Act that would expand what is right now 
essentially a pilot, where 13 States plus the District of 
Columbia are authorized to provide supper for young people up 
to the age of 19. And, of course, in our other States, it is up 
to the age of 12, and there are ways in which we have lessened 
the bureaucracy in that.
    I do have a question, though, about how that is actually 
working in States. Michigan is one of the States that is 
authorized, but we right now are in a situation where we have 
very low participation even though we have very high need, and 
one of the reasons is that the suppers can only be reimbursed 
through the Child and Adult Care Food Program. It is not 
through the other programs, the Russell Program on School 
Breakfasts and Lunches. What this means for us is it is a 
totally different funding stream. It means they have to comply 
with different State licensing laws and regulations on after-
school day care to provide for this and it is just another 
whole bureaucracy. So it is stopping States even who have been 
authorized, like Michigan, from being able to fully 
participate.
    I wonder if you and your staff would be willing to work 
with us, both to support the legislation, which would expand 
the program to all 50 States, but to also create a way where 
States could use the Russell funding criteria rather than going 
through the CACFP right now.
    Secretary Vilsack. Senator, as you know, we obviously, 
absent legislative direction and authority, don't have the 
capacity to utilize other programs. We basically have to work 
within the lane provided by the Child and Adult Care Food 
Program, and as you well know, that is a program in terms of 
participation that is substantially lower in terms of numbers 
of people than the School Lunch and School Breakfast Program. I 
think it is around 2.6 million people that are currently 
involved and engaged in it.
    We obviously would work with Congress if you direct that 
this is something that is a priority and that you believe that 
it needs to be expanded and you provide us the legislative 
authority. We will do everything we can to administer it as 
effectively and efficiently as possible.
    We are interested, and I might say from a priority 
standpoint, we are interested in continuing to also expand 
participation in those regular programs that already have high 
levels of participation, but still students, still youngsters 
today don't fully participate in them. It is important for us 
to also improve, as we talked about earlier, the nutritional 
value, and there is some expense associated with that. But if 
you give us the legislative authority, we will use it as 
effectively and efficiently as we can.
    Senator Stabenow. Obviously, we have multiple needs. I 
think it is clear, though, in this economic time where families 
are struggling with one or two or three different jobs or part-
time jobs to try to pull things together and keep a roof over 
their heads that the Supper Program has also become something 
very important for the same children. So I appreciate working 
with you on that.
    And then the other question I would have relates to efforts 
we have been working on to modernize school kitchens. I was 
really struck by a visit I had a couple of years ago in 
Traverse City, Michigan, where a school on its own chose to 
take away just the microwaves. We think about, well, we will 
just have healthy food. But most of the schools don't have the 
capacity to cook healthy food. They have a microwave. They have 
other things for fast food. But they don't really have a 
kitchen.
    And this particular school on their own had actually redone 
their entire kitchen so they could actually have not only 
salads, but cook real food. I know this is something we have 
been working on. We put dollars in the economic recovery 
package and money into Agriculture appropriations bills. But at 
least in Michigan, the requests have been six times higher than 
the dollars available. It seems to me that it is going to be 
impossible for schools to do what we wish them to do if we 
don't give them the infrastructure to be able to cook healthy 
food and prepare healthy food.
    So I wonder if you might give us an update on where we are 
on that program, and given the tight budgets that we all face, 
are there ways we can creatively partner with schools or 
public-private funding in order to modernize kitchens, which I 
think if we are not careful is really going to be a barrier for 
us getting to where we want to go on this.
    Secretary Vilsack. Senator, as in all things in this topic, 
it is a complex set of discussion points. First of all, again, 
the Congress and the administration should be thanked for 
seeing the wisdom of putting resources in the Recovery and 
Reinvestment Act for modernization efforts because it gave us a 
sense of what the demand was. As you know, you put $100 
million. We received 24,000 applications--24,000 applications--
which would have, if we had fully funded all of them, would 
have required $640 million. We were able through a competitive 
grant process to fund a little over 5,000 of those grants.
    We are certainly appreciative of the $25 million that was 
included in the 2010 appropriations bill and we will use a 
process similar to make sure that the $25 million is stretched 
as far as it possibly can go. I think the more we do this, the 
more awareness will be created.
    I would say one other thing. I think it is important to 
also recognize the need for additional technical training and 
education for food service providers, and that is why it is 
important for us to continue to support the National Institute 
at the University of Mississippi to make sure that we continue 
to provide additional training and upgrade the skills of those 
who are currently managing and operating these food service 
operations so they, in turn, can make the case locally 
effectively of the need why this should be a priority.
    The more awareness, the more discussion there is, the 
greater the likelihood that private foundations, community 
foundations, community backers, school boards will understand 
the significance and importance of these investments, and that 
way, we can leverage the resources that the Federal Government 
has.
    Senator Stabenow. Thank you.
    Chairman Lincoln. Senator Grassley.
    Senator Grassley. Thank you Madam Chairman, Secretary 
Vilsack; thank you for your testimony today.
    I have been preempted on a couple questions, so I may only 
have one, but bring emphasis to the issue that the Senator from 
Indiana brought up about national security. That report 
emphasized that what we do today is going to have a difference 
when young people today are joining or not joining the 
military, being ready or not being ready for the military in 
2030. So we are talking about national security issues, as 
well.
    My question is in regard to the report that you issued 
yesterday, and I commend you for that. It brings attention to 
what this hearing is all about today. When you try to, as a 
Federal agency, try to lead local governments and schools in 
America, or local governments, if there ever is a local 
government, could you describe any resistance or reluctance on 
the part of schools to develop these policies with your 
agency's outreach efforts?
    Secretary Vilsack. Senator, drawing on my experience as a 
mayor, a State Senator, and a Governor, I know that during 
stressful economic times, oftentimes in State budgets, a 
substantial percentage of the State budget goes to schools. And 
so when budgets are being cut, then obviously resources 
available to schools are reduced and that creates challenges 
for school boards and administrators. So anything relating to 
additional cost obviously carries with it some stress and 
pressure.
    That is why I think it is important for us at the Federal 
level to appreciate and understand that challenge and to figure 
out ways in which we can, A, provide additional resources if 
they are available to make it easier, and B, work with those 
school districts to create creative and innovative ways in 
which they can stretch those dollars. It gets back to the 
training issue. It gets back to the equipment issue that I 
discussed earlier.
    So I think that the pressure point here is not--I think 
everyone wants our children to have more nutritious food. I 
think everyone appreciates the necessity of physical activity. 
But I think time and resources are often the pressure points 
and we are trying to address at least one of them here with 
this discussion this morning.
    Senator Grassley. Madam Chairman, I am going to yield back 
my time. I had a couple of other questions, but they were asked 
by other members.
    Chairman Lincoln. Thank you.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Madam Chair, and 
thank you for holding this important hearing. We both have 
children of the same age and we both have that experience, I 
think, of walking into that cafeteria line and seeing these 
kids having to make the choice between a yogurt or french 
fries, and guess what they choose. I think most adults might 
make the same error.
    And so I am really glad that we are moving forward with 
this Child Nutritional Promotion and School Lunch Protection 
Act. I am proud to be an original cosponsor of that bill. I 
thank Senator Harkin for his leadership, as well.
    The way I look at this, we have two things going on. We 
have the nutrition issues which we are talking about today, 
Secretary Vilsack, and thank you for your leadership on that, 
as well as the fact that as recesses get shorter, kids 
waistlines are getting wider, and so we also have to look at 
the exercise that they have. The availability of exercise both 
during the day and after school, I think is very important, as 
well.
    But I wanted to start--I know Senator Harkin touched on the 
vending machine issue and this idea that we can have more 
healthy food in vending machines, but I wanted to talk about 
this a la carte line idea, that maybe free choice is not the 
best idea. You want to have healthy food, but if you start 
having choices that aren't that healthy, that doesn't really 
help. And what I like about this bill is that it looks at the 
whole school nutritional value. Do you want to talk about some 
of the problems if you have choices that aren't at all healthy?
    Secretary Vilsack. Well, the Institute of Medicine in its 
report outlined that it isn't just simply having a planning 
mechanism that focuses on nutrition, but it also needs to 
address--the school needs to address those choices and 
essentially encouraging, creating ways in which we can 
encourage schools to have youngsters make the right set of 
choices.
    Part of it, I think, is information. As we know more about 
the caloric content of our choices, we sometimes make different 
choices----
    Senator Klobuchar. I don't think a seven-year-old is going 
to be able to know that.
    Secretary Vilsack. Well, I was thinking about all the 
youngsters in the schools, high school, middle school. I think 
there are youngsters certainly in high schools and in the upper 
grades of the middle school that are becoming more conscious of 
that.
    Secondly, it is creating systems and processes in which 
schools are rewarded or incented for encouraging and limiting 
the choices that youngsters have and making sure the choices 
they make are nutritious. And I think that there are ways in 
which we will, through the process of finalizing the rule, 
following the Institute of Medicine's report, ways in which we 
can look to incent the right kind of behavior.
    Senator Klobuchar. Also, Secretary Vilsack, I think this 
idea of having the standards, these national standards, 
national interpretation of these dietary guidelines, would not 
only be better for our kids, but could save money, as well. 
Could you talk about that?
    Secretary Vilsack. Well, any time you have standards, it 
gives definition to the school and makes it a little bit easier 
for people to comply with the requirements, and therefore, 
hopefully, it would encourage a broader array of choices which 
encourages competition and in turn should support lower prices.
    I think, secondly, the important role that local production 
and local consumption and linking--we talked about this 
earlier--our farm to school efforts, our Know Your Farmer, Know 
Your Food efforts, we think we can reduce the cost by reducing 
the transportation expense that is associated with the sale of 
processed items completely. So there are a multitude of ways in 
which we can stretch those dollars. It is also better training. 
There are recipes, there are ways in which we can encourage 
those dollars to be stretched and still provide nutritious 
food. We are dealing with this right now sort of globally by 
encouraging on the USDA web site recipes and so forth that 
allow the SNAP recipients, for example, to be able to figure 
out how to stretch their resources.
    It is about the work that Sesame Street is doing with early 
childhood. They have distributed three million booklets that 
contain recipes, games, ways in which youngsters can be 
encouraged to put a rainbow on their plate, things of that 
nature, to understand the difference between, as they say, 
anytime foods and sometimes foods, which some of us obviously 
have difficulty with. But if we can get our youngsters to 
understand the difference, understand that a treat is a treat 
and not something that can be expected every day, I mean, those 
are all ways in which you can save money and provide more 
nutritious foods.
    Senator Klobuchar. Well, one issue that was raised with me 
was this idea of charging school nutrition programs indirect 
costs. As you know, there are no limits under current law 
placed on the amount of Federal nutrition money that can be 
directed toward indirect costs, such as heating the school or 
paying for paper. Do you think there should be some limits, 
that would help to funnel more money toward the nutrition 
programs, since we are also dealing with shortages in our 
school budgets?
    Secretary Vilsack. Here is the challenge with that issue. A 
2008 study suggested that 79 percent of school districts are 
not currently involved in that type of activity with indirect 
costs. Those that are, it is a wide range of those who are 
doing it the right way, charging for reasonable and necessary 
expenditures, and those that may be taking advantage of the 
circumstance, I think rather than placing a cap which could 
potentially encourage more schools in that 79 percent to 
utilize indirect, rather than doing that, I think perhaps a 
better way would be to focus on those schools that are perhaps 
utilizing the capacity in an ineffective way or an 
inappropriate way and encouraging them to get their indirect 
costs more in line with what is reasonable and necessary.
    And let me give you an example that was given to me 
yesterday. If you are going to charge a School Lunch Program 
for the dumpster that they use, that is fine. But if you are 
going to charge them for every dumpster in the entire school 
system, that may not be okay, and those are the kinds of things 
that we need to encourage schools to do a better job of.
    Senator Klobuchar. I appreciate that, and I am out of time 
here, but I also at some point want to talk to you about the 
Child and Adult Care Food Program and trying to get more places 
online there, because as you know, that is also a place where 
we want to have nutritional standards set and I am working on 
some legislation in that area. Thank you very much.
    Senator Harkin. [Presiding.] Thank you.
    Senator Gillibrand, we are on the last part of the first 
vote and we have two votes, so please proceed.
    Senator Gillibrand. Thank you, Mr. Chairman. Thank you for 
holding this hearing. I am very grateful to you and Senator 
Lincoln for your leadership on this issue.
    Thank you, Secretary, for being here and for your 
leadership on these issues.
    Some of the things that I am most focused on right now is 
the high obesity rates in America. We spend about $100 billion 
a year on obesity. And when I was a kid, only about five 
percent of children were obese, and now it is higher than 17 
percent. So this is a grave national health care issue that has 
to be addressed.
    Some of the best ideas that have been developed through 
your leadership through the hearing are feeding our children 
better foods. One thing that I have advocated for is a 70-cent 
increase for school lunches. That 70-cent increase would allow 
for more whole foods, more whole grains, more fruits, more 
vegetables. We could feed our children better foods.
    Second, we want to keep our kids more active, fun programs 
that get them being athletic, being outside, making sure all 
schools have an hour of P. E. or gym time. Teaching kids about 
nutrition--most kids don't understand about nutrition, making 
that part of the school curriculum. And banning trans-fats, 
just banning them across the board in all schools. We have some 
leadership in New York, in New York City, where they have 
already done that quite successfully.
    Another issue we have in high-cost States like New York is 
we would also like to see more people eligible, which you 
addressed in your opening remarks, both for breakfast and 
lunches. But one thing, because our State is such a high-cost 
State, a lot of working families can't afford good quality 
lunches for their kids, and so if we could increase the 
eligibility rate based on HUD's rental scheme, you would 
actually be able to get more children in, to maybe about 
$40,000 for a family of four income level. So that is another 
area of interest that I have that I hope you will pursue and 
look at.
    And then my third area of concern is food safety. I have 
begun looking at this issue. I am very concerned about lack of 
testing for E. coli, for example, in hamburger meat before it 
is ground up. I am very concerned about the lack of 
notification. If foods are recalled, our schools are not even 
notified that a food has been recalled in a grocery store or in 
the national media. So our schools need far more information, 
and our parents have no information whatsoever about where our 
food comes from.
    In particular, there is an article today in USA Today that 
I hope you study, because it is a very concerning article that 
brings some significant evidence to bear on this topic. First 
of all, they report that between 1998 and 2007, the data that 
they have been able to collect shows 470 outbreaks where 23,000 
children were made sick. And some of the examples they use are 
where there was evidence that the FDA knew about that a certain 
producer or provider of food had unsanitary habits, had made 
children sick in the past, and that information never got to 
the school districts, never got to the parents.
    So I would like you to address that issue today in our 
time. Given the complex task of assuring food safety, and it is 
shared jointly by the USDA and the FDA, can you please 
elaborate on the steps you are taking to ensure better 
coordination between your agency dealing with the food safety 
and the Food and Drug Administration? I have heard reports that 
the FDA has delayed finalizing an MOU with the Food and 
Nutrition Service, so I would like you to discuss some of the 
problems you may face there.
    And second, can you also talk about the steps that the USDA 
has taken to help schools increase transparency about what 
items are being served to students so parents can be more 
involved in planning menus and the development of those menus?
    Secretary Vilsack. Senator, thank you for raising the issue 
of food safety. I know that is of particular interest to you 
and I appreciate you addressing this. It is a deep concern for 
us at USDA. It is the reason why we encouraged the President 
and were encouraged by the President's establishment of the 
Food Safety Working Group that involved myself and Secretary 
Sebelius as the Co-Chairs.
    As a result of that Food Safety Working Group, whose work 
is still ongoing, there have already been a number of steps 
taken to try to address the issues raised in the article that 
you mentioned.
    First of all, as it relates to ground beef specifically, we 
have started a process of encouraging the testing of bench trim 
that goes into ground beef, which was not done before, which we 
think will help reduce E. coli in ground beef. We are also 
focused on salmonella in poultry and increasing and enhancing 
our roles in that respect. We are increasing worker training.
    We are also working on a unified incident command system 
and structure. We understand and appreciate that there has been 
a lack of communication between the two agencies and a gap in 
communication, which results in school districts not getting 
information on a timely basis. We are addressing that with this 
unified incident command structure and system. We also 
appreciate the need for us to get information to parents as 
quickly as possible, which is why we are exploring the 
utilization of the social marketing techniques, Facebook, 
Twitter, and the like, to try to get messages out as quickly 
and as effectively and as correctly as possible.
    Now, we are instituting within USDA, as it relates to our 
portfolio of food safety issues, a series of initiatives. We 
have developed a hold and recall procedure for foods procured 
by USDA for the National School Lunch Program. We have got a 
commodity complaint system in place that has been added to our 
electronic commodity ordering system. We have a rapid alert 
system to quickly notify program operators of food safety 
issues. We are utilizing that electronic commodity ordering 
system to announce recalls of non-USDA commodities.
    We are implementing a food safety program developed in part 
on our HACCP principles. In fact, school districts are the only 
retail outlet, if you will, that is currently operating under 
HACCP principles. As you know, we are requiring safety 
inspections within schools, two a year. We are now at 70 
percent participation. We want to get to 100 percent. We are 
instituting a public notification system that allows 
individuals to receive bulletins of significance, especially 
recalls affecting USDA commodities.
    So there is an awful lot of activity emanating from the 
Working Group. We are very focused on this. Staff knows that 
this is another priority area of ours, and so I can assure you 
that we are going to try to do better than we have done.
    Senator Gillibrand. Thank you, Mr. Secretary. I will go 
vote and come back. Thank you.
    Senator Chambliss. [Presiding.] Mr. Secretary, the number 
of members attending has absolutely nothing to do with the 
quality of your testimony----
    [Laughter.]
    Senator Chambliss. --and everything to do with this vote 
that is going on. We are going to try to keep going here.
    First, I would ask unanimous consent that the testimony of 
Kraig R. Naasz, the President and CEO of the American Frozen 
Food Institute, be inserted into the record.
    [The prepared statement of Mr. Naasz can be found on page 
98 in the appendix.]
    Senator Chambliss. Mr. Secretary, in regard to your 
recommendation that schools be required to share information 
about the content of their meals, are you suggesting that 
schools post this information in the cafeteria, similar to the 
legislation that we are considering where restaurants are going 
to be required or may be required to post information relative 
to items on the menus, or what exactly are you talking about 
here with regard to the information provided?
    Secretary Vilsack. Senator, what we are trying to do is to 
try to engage in a more meaningful way parents, so that parents 
are informed and are up to speed with what is happening in 
school. Virtually every school that I am aware of, I suspect 
has either a newsletter or a website or a combination of some 
kind of method by which they communicate with parents. Our 
suggestion is that we utilize those communication techniques to 
let parents know precisely what is taking place relative to the 
nutritional value of what their children have access to in the 
hope that they will either support the school in increasing and 
enhancing nutrition, or acknowledge that the school has made 
efforts to increase nutrition or support that at home, as well. 
We think the more education, the more information people have, 
the more informed choices they will make, and the better 
choices they will make.
    [Pause.]
    Secretary Vilsack. Senator, if I could add just one other 
comment on the issue of information----
    Senator Chambliss. Sure.
    Secretary Vilsack. This is a consistent theme throughout 
the various programs that we are administering. We are working 
very hard to encourage SNAP recipients, for example, to have 
more information available to them about the nutritional value 
of certain food products, and we see in some grocery stores 
around the country a real concerted effort to inform the 
customers. In my home State, the Hy-Vee Food Chain, for 
example, is currently assessing a nutritional value, a 
numerical value to virtually everything that they are going to 
sell in their grocery store so that people can then make an 
informed choice. They started, I believe, in the cereal area, 
and what they found was that when they did that, that shredded 
wheat sales went significantly higher than they had 
anticipated. So it is really about informing folks so they can 
make the right set of choices.
    Senator Chambliss. It is interesting that people are 
starting to pay more attention to what is on the side of those 
boxes now, so that is encouraging.
    Secretary Vilsack. I think we are all very sensitive to 
health care costs, and as Senator Harkin suggested, one way you 
can bend that health care cost curve is to have prevention and 
wellness, and that requires better nutrition and more physical 
activity.
    Senator Chambliss. Mr. Secretary, we are going to go ahead 
and move on. I know you are extremely busy and we don't need to 
keep you here. If anybody does have any questions, the record 
will be held open and they can submit those questions to you in 
writing. Thanks for your willingness to come up and provide 
information on these issues that are so critical to your 
functioning as the Secretary, but from a policy standpoint to 
aid us. So thank you very much.
    We will now move to the second panel. To the members of 
this panel, thank you for taking your time to come up and visit 
with us today. Welcome to the Senate Agriculture Committee. We 
look forward to hearing your testimony.
    First of all, we have Dr. Margaret Bogle, Executive 
Director, Delta Obesity Prevention Research Unit, U.S. 
Department of Agriculture, Agricultural Research Service, from 
Little Rock, Arkansas. Dr. Bogle, welcome.
    Mr. Rich Huddleston, Executive Director, Arkansas Advocates 
for Children and Families in Little Rock. Welcome to you, Mr. 
Huddleston.
    Ms. Rhonda Sanders, Executive Director, Arkansas Hunger 
Relief Alliance, also from Little Rock.
    And Ms. Jennifer Smith, Director of Compliance, Wal-Mart, 
Bentonville, Arkansas. Ms. Smith, welcome to you.
    Dr. Bogle, we will start with you for your presentation, 
and Mr. Huddleston, we will go right down the line there upon 
completion by Dr. Bogle.

STATEMENT OF MARGARET BOGLE, EXECUTIVE DIRECTOR, DELTA OBESITY 
   PREVENTION RESEARCH UNIT, U.S. DEPARTMENT OF AGRICULTURE, 
      AGRICULTURAL RESEARCH SERVICE, LITTLE ROCK, ARKANSAS

    Ms. Bogle. Chairman Lincoln, Ranking Member Chambliss, and 
other members of the committee, my name is Margaret Bogle. I am 
a nutrition scientist with ARS located in Little Rock. I want 
to thank you for this opportunity to come before you today to 
discuss reauthorization of the U.S. Child Nutrition Programs.
    My hope is the relating of my experiences in the lower 
Mississippi Delta of Arkansas, Louisiana, and Mississippi, 
working with families, rural communities, and schools, public 
and not-for-profit agencies will enhance your discussion of the 
USDA Child Nutrition Programs. These are complex issues which 
have already been described this morning, but they require the 
innovative efforts of our government working in collaboration 
with individual citizens, families, communities, farmers, food 
processors, and manufacturers, and educational [inaudible] at 
all levels. My goal is to set the stage with an introduction to 
the nature of good nutrition and healthy lifestyles for 
families and children so that the rest of the panel can present 
their views of the role of policy changes, child advocacy, and 
recommendations for the reauthorization of the Child Nutrition 
Programs.
    Secretary of Agriculture Tom Vilsack and First Lady of the 
United States Michelle Obama have taken a leadership role in 
recent months with the example and message of healthy eating as 
it relates to the health and well-being of our children and 
young people. The First Lady's White House Garden, the People's 
Garden at USDA, and the joint USDA-White House effort to 
promote the Healthier U.S. Schools Challenge clearly shows that 
our senior leadership understands the importance of healthy 
eating and physical activity for children and has made it a 
priority.
    An ongoing concern is that almost one-third of our children 
are overweight and at risk of becoming obese. We know that 
obese children have much greater risks of becoming obese adults 
than those children who maintain healthy weight patterns, 
making them much more susceptible to various chronic diseases, 
such as hypertension, diabetes, and cardiovascular disease. 
Overweight children in many instances are not physically able 
to participate in vigorous physical activity with their peers 
and are often subject to ridicule or even bullying. This can 
lead to more serious emotional problems and may contribute to 
additional overeating, which exacerbates the original problem.
    Another question is whether or not some children are 
getting enough to eat. Food security studies for 2008 released 
just yesterday and already entered into the record today 
indicate that approximately 15 percent, or 17 million 
households, were food insecure at some time during the year, 
which is an increase of four percent from 2007. And the 
negative influences of food insecurity on children's health are 
included in my written comments.
    Children who do not eat breakfast have lower scores in 
school, more tardiness, and increased rates of absenteeism than 
their counterparts who do eat breakfast, again, showing that 
the School Breakfast Program makes a contribution not only to 
the health of the children, but also makes it possible for them 
to take advantage of the education provided at school. All 
children should be encouraged to eat breakfast. Children who 
get a healthy breakfast are less likely to be overweight.
    The USDA Child Nutrition Programs have the potential to 
impact over 31 million school children and thereby improve 
access to healthy, nutritious foods during an average school 
day. For many children in the Delta, the food eaten as snacks 
and meals at school may account for as much as 75 percent or 
more of their total intake for the day.
    Recent reports from the Institute of Medicine, the American 
Academy of Pediatrics, and the Robert Wood Johnson Foundation 
have recognized that environmental factors affect individual 
behaviors related to food and physical activity. In many 
communities, for example, fresh produce is simply not available 
or affordable. Streets and parks are not amenable to exercise. 
And policies and economic choices make fast food cheaper and 
more convenient than healthier alternatives. Communities have 
made efforts to improve these factors in diverse settings and 
with diverse populations, resulting in many promising 
approaches.
    The Agriculture Research Service has been collaborating 
with scientists in a tri-State region to improve the health of 
at-risk rural populations in the lower Mississippi Delta, where 
the prevalence of nutrition-related chronic diseases, including 
obesity, is much higher than in the rest of the United States. 
ARS is coordinating this research with the 1890 Land Grant 
Universities and an additional university in Arkansas, 
Louisiana, and Mississippi. The prevalence of many nutrition-
related health problems is greater for minority, rural, and 
low-socioeconomic groups which have led to the designation of 
at-risk populations.
    The Delta is one of the regions of the U.S. which clearly 
exemplifies the designation of at-risk and has great potential 
for USDA and ARS and other governmental agencies to study the 
effects of nutrition and health strategies, including the 
effects of Child Nutrition Programs related to improving the 
lifestyle and the prevention of obesity. The ability of ARS to 
engage in long-term research is particularly appropriate. 
Additional details of our research are included in my written 
comments.
    We know that in the Delta, as in much of the U.S., children 
and their families are not following the U.S. Dietary 
Guidelines for Americans, which are positioned to provide 
recommendations for a healthier lifestyle. As compared to the 
recommendations, they are eating fewer servings of fruits and 
vegetables, more refined grain and fewer whole grains, more 
high-fat dairy and high-fat meats, more discretionary calories, 
especially sugar, and they are not exercising up to the 
recommendations of the dietary guidelines.
    Many children in the Delta have not experienced a wide 
variety of fresh fruits and vegetables and are less likely to 
eat new fruits and vegetables when seen for the first time. 
This underscores the need for the Fresh Fruit and Vegetable 
Program in every school.
    My testimony is intended to show the breadth of the problem 
as well as suggest some solutions that are working and some 
that are still being tested. The most important thing we can do 
is to begin to involve children, families, and communities in 
being part of the solution, and I am happy to report that is 
beginning to happen, the most important of which is that, as a 
nation, we must begin to put nutrition in its rightful place as 
regards to health and health care in the United States.
    Thank you for the opportunity to appear before you today to 
discuss the reauthorization of Child Nutrition Programs, and I 
look forward to answering questions that you may have after the 
rest of the panel's testimony. Thank you, Senator Chambliss.
    [The prepared statement of Ms. Bogle can be found on page 
57 in the appendix.]
    Senator Chambliss. Thank you very much.
    Mr. Huddleston.

  STATEMENT OF RICH HUDDLESTON, EXECUTIVE DIRECTOR, ARKANSAS 
   ADVOCATES FOR CHILDREN AND FAMILIES, LITTLE ROCK, ARKANSAS

    Mr. Huddleston. Thank you, Senator Chambliss. My name is 
Rich Huddleston. I am with Arkansas Advocates for Children and 
Families. We are a nonprofit, nonpartisan child advocacy 
organization. Our mission is to ensure that all children and 
families have the resources and opportunities they need to lead 
healthy and productive lives and realize their full potential.
    Even though she is out of the room, I did want to 
congratulate Madam Chairman Lincoln for taking over the reins 
of this committee and to say how proud we are back home to have 
such a strong leader in helping vulnerable children and 
families.
    Let me start by painting a picture of poverty in Arkansas. 
One in four Arkansas children is poor. Arkansas ranks among the 
four worst States nationally----
    Senator Chambliss. She is back now, so you can say nice 
things about her again.
    [Laughter.]
    Mr. Huddleston. Arkansas ranks among the four worst States 
nationally in overall poverty, with roughly one in six 
residents living in poverty. No matter how hard they work, 
fully half of all Arkansans don't make enough to fully support 
themselves, and the current economic crisis is not making 
things any easier.
    Nationally, about six million households with children 
struggle against hunger. Children in these households also tend 
to have poorer health outcomes and face barriers which make it 
difficult for them to succeed in school and become productive 
workers and adults. One of the best things Congress can do to 
support struggling children is to strengthen the Child 
Nutrition Programs when it reauthorizes them this year. These 
programs have extraordinary reach. More than 31 million 
children eat a meal provided through the School Lunch Program 
on a typical day. By providing nutritious meals to children and 
making it easier for low-income families to make ends meet, the 
School Meals Programs reduce poverty and food insecurity and 
shrink the educational achievement gap for our most 
disadvantaged children.
    Unfortunately, millions of children who qualify for free 
school meals don't receive them. When Congress reauthorized the 
Child Nutrition Programs in 2004, it required school districts 
to use direct certification to automatically enroll school-age 
children in households that receive Food Stamps. But not all 
districts conduct direct certification equally effectively. The 
USDA estimates that 3.5 million out of the ten million children 
who were eligible for direct certification at the start of the 
2008-2009 school year weren't directly certified.
    Our goal should be to automatically enroll every single 
child who is eligible for free meals in a timely manner. 
Working toward this goal will bring about three important 
benefits. First, needy children will get the food they need and 
their parents won't have to complete duplicate paperwork.
    Second, program integrity will be strengthened as schools 
rely on data that have already been scrubbed by other means-
tested programs instead of the paper-based applications that 
are prone to errors. This will help ensure that taxpayer 
dollars are spent wisely.
    Third, schools will have a lower administrative burden, 
which will free up resources they can use to provide healthier 
meals or to enrich academic opportunities.
    I am going to discuss two ways in which Congress can 
improve access to free school meals. The first is to allow 
schools with large concentrations of poor students to serve 
free meals to all of their students rather than spend time 
identifying the very small number who don't qualify. The 
school's Federal reimbursements would be based on the results 
of direct certification. If a school directly certifies more 
than 40 percent of its students, generally more than 80 percent 
of its students qualify for free or reduced meals anyway. So if 
the school agrees to serve all meals free, it shouldn't have to 
process applications or check eligibility in the cafeteria. 
Nationwide, six million children attend schools where more than 
80 percent of the students qualify for free or reduced meals.
    The Senate bill that includes this proposal is entitled the 
Hunger-Free Schools Act. These schools will be literally 
hunger-free spaces. All children will be eligible to eat 
breakfast and lunch free of charge. Congress, in short, would 
eliminate administrative hurdles that get in the way of 
effectively feeding poor children.
    The other way in which Congress can improve access to free 
school meals is by allowing schools to automatically enroll in 
free meals any student receiving Medicaid. This would help 
ensure that the poorest children receive free meals regardless 
of where they attend school. Children in households receiving 
Food Stamps have long been eligible for free school meals. This 
makes sense, since these families have already proven that they 
have low incomes through the rigorous Food Stamp enrollment 
process. The same is true for parents who have enrolled their 
children in Medicaid. They shouldn't have to complete a 
duplicate application for school meals and schools shouldn't 
have to process unnecessary paperwork. Congress should permit 
the school systems and States to work directly with Medicaid 
agencies to use income data from Medicaid to automatically 
enroll children for free school meals. An estimated two million 
poor children participate in Medicaid but not Food Stamps.
    In conclusion, I know the committee has received many 
proposals as part of this reauthorization process, but I 
believe the two proposals I have described today offer a big 
bang for the buck and thus deserve high priority.
    Thank you again for allowing me the opportunity to testify 
before this committee today.
    [The prepared statement of Mr. Huddleston can be found on 
page 63 in the appendix.]
    Chairman Lincoln. [Presiding.] Thank you.
    Ms. Sanders.

   STATEMENT OF RHONDA SANDERS, EXECUTIVE DIRECTOR, ARKANSAS 
         HUNGER RELIEF ALLIANCE, LITTLE ROCK, ARKANSAS

    Ms. Sanders. Chairman Lincoln, Senate Committee members, 
staff, and other honored guests, it is an honor to actually be 
able to speak to you today concerning childhood hunger and the 
Child Nutrition Act. I am the Executive Director of the 
Arkansas Hunger Relief Alliance.
    We are an association for the food banks in the State and 
for all of the local hunger relief organizations and hunger 
advocates. We have over 100 members in the Alliance and over 
900 organizations as part of our network. We are truly a united 
voice in Arkansas to end hunger. We work to raise the level of 
awareness concerning hunger in Arkansas, advocate for public 
policy concerning hunger and feeding programs, and to secure 
funding. We believe the ability to provide an adequate diet to 
all Arkansans requires the collaborative effort of government-
sponsored feeding and nutrition programs, a diverse and capable 
charitable food system, a healthy, thriving private sector, and 
strong public policies that support moving families from 
poverty to self-sufficiency.
    This morning, I just want to address three specific areas 
about childhood hunger: Briefly, the state of childhood hunger 
in Arkansas; childhood hunger related to health and obesity; 
and finally, some of the gaps that are in the provision of 
nutritional services to children.
    Arkansas is a low-income rural State. Fifteen-point-nine 
percent of our households in Arkansas are food insecure. Over 
half of the 464,000 public schoolchildren in Arkansas receive 
free or reduced-price lunch. The Feeding America Food Banks 
that are part of the Alliance serve over 300,000 people a year. 
Of these 300,000, approximately 40 percent of them are 
children.
    We are, as you mentioned earlier, currently ranked third in 
the nation for the highest incidence of hunger. It is a reality 
for many of the people in our State that they live with daily, 
wondering where their next meal will come from. We have seen 
this rate of food insecurity increase, and it has actually 
played its way out in recent studies that the Arkansas 
Children's Hospital has been a part of through the Child Health 
Watch Program that has shown a drastic increase in the number 
of children reporting to the ER that are suffering from food 
insecurity. It has jumped from last year at 10.7 percent all 
the way up to 2008, it jumped up to 22.2 percent reporting 
incidences of hunger. These are extreme increases.
    We know that Arkansas is not the only State in the nation 
struggling with poverty, poor health outcomes, and low 
educational attainment, but we do know that hunger is a direct 
contributor to each one of these. But hunger is a curable 
problem.
    Thanks to research of many organizations, like Feeding 
America, FRAC, Robert Wood Johnson, we have shown that there is 
a clear correlation between hunger and poor health outcomes and 
hunger and obesity. It is rather startling when you read some 
of the numbers from studies that show that toddlers who have 
suffered from food insufficiency at any point in time before 
their fourth birthday are 3.4 times more likely to be obese at 
4.5 years. Those are rather startling facts when you consider 
that the families most likely to suffer from food insecurity 
are those with young children who are trying to make ends meet 
and getting their careers and their lives started.
    So it is very clear that there are things that we need to 
do in addressing the overall health outcomes of children who 
may suffer from food insecurity. Government-sponsored programs 
like School Lunch, Breakfast, WIC, After School, and Summer 
Food clearly have a role to play, and it is important for us to 
expand access, make it available, and also to keep high 
nutritional standards for these programs, nutritional standards 
like the ones that Senator Harkin has recommended for all 
school foods.
    In Arkansas, we have been fortunate to do some of that. 
Thanks to legislation in 2003, I was able to be on that 
committee and we worked to set some very high nutritional 
standards for all foods in the State that are provided in the 
school. It has been very successful and Arkansas has been the 
only State in the nation to halt the progression of obesity 
amongst their children. Now, while these things weren't 
directed specifically at hunger children, the effect is the 
same. Hunger children need nutritionally high items to eat as 
much as any other child needs.
    I want to touch very briefly on some things that the 
Charitable Food System is actively involved in and some ways 
that we can help all programs. The Charitable Food System is 
involved in many ways with After School and with Summer 
Feeding. Those programs need to be streamlined. They can often 
be difficult to manage. The After School Program that was 
mentioned earlier, where after school suppers are provided in 
14 of the States, that should be looked at being expanded to 
where all States have access to do that.
    But finally, the one Charitable Food program that food 
banks are involved in throughout the nation that has no Federal 
support is the Backpack Program. This program was actually 
initiated in Arkansas with a school nurse that called one of 
the local food banks and said, you know, we are getting 
children in here with tummy aches and headaches and they can't 
function in their classroom and we finally figured out that it 
is because they are hunger. So they started putting together 
backpacks of food. These items were provided through the food 
banking system. They are items that are easy to prepare, 
single-serving meals, and they go home with them in a low-
profile backpack on the weekend.
    Well, these foods can be expensive and the food banking 
system and the Charitable Food System juggles the cost of these 
items and the nutritional value that we want to send home with 
children on those weekends. This is a program that could 
benefit from you looking at some pilot programs to look at ways 
to implement this in a cost-effective manner, to 
institutionalize this so that it is available to all schools, 
because the one issue that we do hear is that there are lines, 
there are waiting lists for children who want to get on this 
program all over the nation. So it could be a very good way to 
bring more food to children on the weekends when they are going 
hungry.
    I want to close with a story about a Backpack Program from 
Jonesboro, Arkansas, from our food bank there. After the food 
bank of Northeast Arkansas began a Backpack Program, the 
Executive Director did a site visit to one of the schools to 
monitor the program's progress. The school counselor shared the 
story of a young boy who was so excited to get his first 
backpack of food that he sat down in her office and started 
going through it right there. He opened up the backpack and 
there were two fresh red apples right on top.
    He reached in it and with a big smile handed it to the 
counselor. The school counselor said, ``Oh, put that back in 
your backpack. All of that food is for you. Isn't that 
wonderful?'' And his smile kind of faded and she thought, what 
is wrong? So she asked him and she was totally unprepared for 
her answer. He looked at her and he said, ``But I have never 
had anything that was mine to share. I want you to have this 
apple.'' So who would have thought that something like giving a 
child an apple in a backpack would provide such an opportunity 
to that child to be like so many of the other children, to have 
the joy of giving and the joy of being a part of something.
    So what we are doing in feeding children through the 
schools and the things that we are providing them are giving 
them so many long-term opportunities to be successful. I 
applaud what you have done with the extension to the Child 
Nutrition Act. We think that the things that are there will 
give us a chance to pilot and to model some opportunities for 
the future. I look forward to working with you in any way 
possible. Thank you.
    [The prepared statement of Ms. Sanders can be found on page 
72 in the appendix.]
    Chairman Lincoln. Thank you, Rhonda.
    Ms. Smith.

 STATEMENT OF JENNIFER SMITH, DIRECTOR OF COMPLIANCE, WAL-MART 
              STORES, INC., BENTONVILLE, ARKANSAS

    Ms. Smith. Chairman Lincoln, Ranking Member Chambliss, and 
distinguished members of the committee, on behalf of Wal-Mart 
and our 140 million weekly customers, I am honored to testify 
before you today.
    My name is Jennifer Smith and I am the Director of 
Regulatory Compliance based at our home office in Bentonville, 
Arkansas. I would specifically like to address the WIC program 
and two issues we have identified that should be addressed in 
the upcoming reauthorization: The program's transition to 
Electronic Benefits Transfer, or EBT, and the importance of 
standard operating rules, and the new food packages and the 
need for one place where retailers and manufacturers can access 
information about all approved foods.
    Wal-Mart supports the President's goal of ending childhood 
hunger by 2015. We have partnered with the Feeding America 
Network to donate food from our locations around the country, 
and we expect to donate more than 90 million pounds of food by 
the end of 2009.
    Possibly the most significant advantage we have is our 
ability to source and sell safe and high-quality food products 
at the most competitive prices, which helps our customers save 
money so they can live better.
    We are the largest grocery retailer in the United States, 
with stores in many communities, Tribal areas, and all 50 
States. We are currently processing more than four million WIC 
transactions on a monthly basis, approximately 400,000 over the 
same period last year. As you might imagine, we are looking for 
the most efficient way to process WIC transactions while 
providing the highest level of customer service to everyone.
    First, I would like to address the transition to EBT. The 
existing paper voucher system is one of the most complicated, 
time consuming, and costly transactions conducted at our point 
of sale. The paper transaction process spotlights the WIC 
participant, creates confusion, frustration, and sometimes 
confrontation between the customer and the cashier, and 
requires participants to separate WIC foods from their other 
groceries, all potentially adding to the stigma associated with 
receipt of these benefits.
    Like others in the retail community, we support the 
transition of WIC benefits to EBT. The SNAP Program's 
transition to EBT has positively impacted the SNAP recipients' 
shopping experience, retailer efficiencies, and fraud 
reduction. We are eager to see these same positive outcomes for 
the WIC Program. We believe that standardization of WIC EBT 
will help bring efficiency to the transactions and help create 
administrative savings for the program that could be redirected 
to provide more WIC benefits to those in need.
    While it is important to allow for technological innovation 
and creativity, there are times when all relevant stakeholders 
should coalesce around a common set of technical standards to 
ensure a successful implementation. The USDA FNS should be 
commended for beginning work in this regard, and we encourage 
the committee to mandate development of one set of technical 
standards and operating rules for WIC EBT in the upcoming 
reauthorization. In 2002, Congress addressed the need for 
similar standardization with the SNAP EBT.
    Wal-Mart has participated in WIC EBT developments with 
several States involving the two prevailing technologies, the 
Smart Card, or offline approach, and the online magstripe 
approach. After testing and implementing both technologies, we 
can say with confidence that the Smart Card technology has been 
the best performing WIC EBT system to date.
    When Congress issued the initial EBT mandate for SNAP, it 
was not conditioned on interoperability. This created
    problems in places like Washington, DC, New York City, and 
Southern Ohio, where SNAP recipients commonly shop outside 
their home States. We believe the ability to use and to accept 
WIC EBT cards at any WIC authorized retail location in any 
State goes hand-in-hand with standardization. Without 
standardization and interoperability, we believe there would be 
an unnecessary increase in State and retail costs and 
unnecessary restrictions placed on the shopping options of WIC 
participants. In addition, interoperability would be essential 
in times of natural disaster, when WIC participants are 
displaced from their home States.
    Second, I would like to address the new food packages. 
While we supported the modernization of the packages, it is 
important to note that the former packages had only about 500 
approved food items. The new packages have approximately 12,000 
items to date. Given the added complexity, it would be helpful 
if there were a centralized resource identifying all eligible 
products under the program. This would help retailers meet 
their obligations as WIC vendors to stock the required WIC-
approved foods.
    We have heard from our suppliers and others in the retail 
community that there is a significant need for a universal set 
of guidelines or criteria that WIC authorities could use to 
approve products for the program. We would support a provision 
in the upcoming reauthorization that authorizes and funds the 
development of a centralized database within USDA to manage a 
list of all eligible products under the program and make 
universal criteria used to approve products for the program 
available to retailers and manufacturers.
    In closing, I would like to thank you for the opportunity 
to testify here today. Congress has an unprecedented 
opportunity to bring uniformity and standard operating rules to 
the program, which will bring costs down, improve program 
efficiencies, and help simplify the shopping trip for moms. The 
retail community looks forward to working with you on the 
upcoming Child Nutrition reauthorization legislation.
    [The prepared statement of Ms. Smith can be found on page 
78 in the appendix.]
    Chairman Lincoln. Thank you. Thanks to all of you.
    In deference to my colleague, I know he has got somewhere 
he has to be, so I would like to turn to him first for any 
questions he may have of you all and then we will continue. 
Senator Chambliss.
    Senator Chambliss. Thank you, Madam Chairman. I appreciate 
your indulgence and your cooperation, as always.
    All of you have given us good practical issues to look at, 
and very honestly, you have given us some very good practical 
solutions to those issues, and I am appreciative of the way you 
all have delved into this issue. In fact, Ms. Smith, you just 
answered my question that I was going to ask you relative to 
some of the practicalities of the WIC program. And, gosh, going 
from 500 to 12,000 items, I can see we have got a little work 
we have got to do there. Your suggestion, I think, is well 
taken.
    Dr. Bogle, as you know, childhood obesity rates are 
staggering. Of course, the problem is beginning more and more 
at earlier ages now. The rate of obesity for children entering 
kindergarten seems to be the same it is when they complete 
kindergarten, if I remember my numbers right. In your research, 
have you found any effective interventions aimed at parents and 
caregivers to help them be more aware of childhood obesity 
issues as well as providing tools to help prevent or reverse 
this in the home?
    Ms. Bogle. Thank you, Senator Chambliss. We are working on 
that, absolutely. And the one comment I wanted to make in 
regard to other things that have been said, you know, it is not 
just the schools. It is the families, and particularly when we 
talk about these preschool children, many of them are not 
enrolled in school programs where they might get information 
and parents might get information about better feeding choices.
    In reference to what Rhonda just said about the preschool 
kids and the increase in obesity in the zero to three, part of 
that problem is the fact that for those children, the source of 
calories for them oftentimes--most of the time--are foods that 
do not have or are not high in nutritional quality--heap 
calories, both fat and sugar-related items, but not other 
items.
    For instance, it is very difficult for families in rural 
areas, low-income families, to find ways of preparing fruits 
and vegetables for their children--in the zero to three, I am 
talking now--unless they are just buying the baby foods, the 
commercial foods that are already on the market, which are more 
expensive than they would be if they were using some of the 
foods that the rest of the family is eating. But it is more 
difficult to get that job done.
    I think, unequivocally, what we are seeing in the rural 
communities, and that is where I have spent most of my time so 
that is what I will talk about, is the involvement of families, 
particularly grandparents. Now, in the Delta, we have a lot of 
grandparents that are raising grandchildren and they are living 
in these rural areas again and they are becoming one of the 
biggest advocates for the prevention of obesity of not only 
their grandchildren, but great-grandchildren and others to 
come. So we think that part of what we are seeing is if we can 
involve the schools, the communities, agencies within the 
communities, families, even extended families, and the children 
themselves when they are old enough to know what we are trying 
to tell them about, is the best way to go, because it is not 
just a single item. It is a very complex issue.
    For instance, this whole idea of physical activity, I know 
a lot of people think that those of us who live in rural areas 
just have ready access to all kinds of physical activity, but 
it is not the case anymore. It is very unsafe in many areas for 
children to even play outside their homes. So we are not just 
talking about the lack of exercise facilities, but we are 
talking about the safety of areas where they might exercise.
    So I think that the other thing we are seeing is that 
different segments of the society--and we know from the report 
released yesterday on food insecurity that there are groups 
within our society that are at higher risk of food insecurity--
those same groups, it turns out, are at higher risk of obesity 
for their children. Some of that is cultural, and so we must 
begin to make some kind of efforts to inform our citizenry 
about some of the differences in culture and health issues for 
their children. So that is really what we are trying to work on 
in the Delta.
    Senator Chambliss. I am glad to hear you say that the 
adults that participate in your study are becoming more 
cognizant of the way food is prepared, because I am sure 
Arkansas is very much like Georgia, and I live in a rural part 
of our State. If there is any question about how to prepare it, 
you batter it and you deep fry it----
    [Laughter.]
    Senator Chambliss. --and it is pretty darn good, whatever 
it is----
    Ms. Bogle. It is tasty----
    [Laughter.]
    Senator Chambliss. --but it is probably not the healthiest 
way to prepare it, so that is encouraging.
    Well, I want to thank all of you for your testimony and we 
look forward to staying in touch and dialoguing with you as we 
go through this reauthorization next year.
    Thank you, Madam Chairman.
    Chairman Lincoln. Absolutely. Well, a special thanks to 
Senator Chambliss for covering as the votes were going on and 
certainly for working with us on this critical issue. He is 
always there, and he and his staff both are wonderful to work 
with, so I am grateful to him.
    I want to take my personal time here to be able to welcome 
you all to the committee and, again, your voices in this very 
critical issue that we face in terms of child nutrition and 
really getting it right. We know that we have to start at an 
early age and it is not just what we put in front of them, but 
it is what we teach them, and that is critical.
    So, Dr. Bogle, thank you for all of your work as Executive 
Director of the Lower Mississippi Delta Obesity Prevention 
Research Unit. You all do tremendous work there, not only in 
terms of what children eat, but also looking at how we can 
teach them so many other things.
    We are so very grateful to Rich Huddleston, whose 
tremendous years of service to children across the State of 
Arkansas, now as Executive Director of the Arkansas Advocates 
for Children and Families. You have just been a great resource 
to me and I am grateful for all of your hard work and the 
things that you have done.
    Rhonda with our Hunger Alliance, we appreciate--I should 
say Ms. Sanders, sorry--for all your work with the Hunger 
Alliance and what it means. Those Backpack Programs, listening 
to those stories is unbelievably meaningful, and to see what it 
has meant in the lives of those children and to think that it 
was just from a school nurse who really thought that there has 
got to be a better way to help these kids over the weekend, and 
when our Hunger Alliance and our food banks came to the rescue 
and said there is a better way, we are going to work and we are 
going to work to improve upon it. So we are grateful to you 
all.
    And Ms. Smith, thank you, because Wal-Mart does a wonderful 
job, not only in our communities in providing for our families 
a way to--and a very economical way to provide for families, 
but they also share their information with us in helping to 
figure out a better way to get families what they need. The 
information that you all have in terms of the customers that 
you serve is really critical for us in getting it right and 
making it a simpler process and one with integrity and respect, 
and that is so critical, as we all know. We are all put on this 
earth to look after one another and there is a right way and a 
wrong way to do that, and without a doubt, the respect is a 
critical part of what we want to do here in the committee as we 
design these programs for our fellow man, and particularly for 
our children.
    So I appreciate it and am particularly proud that this 
panel is here today and feel like you have already offered a 
great resource in terms of your knowledge, but look forward to 
continuing to work with you.
    Chairman Harkin did a tremendous job, along with the staff, 
in really teeing up what we need to do on child nutrition and 
we are looking forward to bringing that to fruition in the bill 
shortly after the new year so that we can move forward and 
really get down to the business of what we want to do, and that 
is making sure that our children are healthy in this country.
    Just a couple of questions, if I may. Dr. Bogle, in your 
testimony, you note that food insecurity can have a negative 
impact on academic performance. Children that don't eat 
breakfast have lower scores in school. It is why so many of our 
schools are providing food for children on days when it is 
standardized testing. But without a doubt, with those Breakfast 
Programs, it is important for us to be creative and inventive 
in making sure that children have good nutrition in the 
mornings and making sure that there is a way that they can get 
it. I have got teenage boys now, and they don't like to get out 
of bed in the morning, so we need to make sure that it is 
something that is deliverable to children.
    But what about the relationship between poor diet, 
especially overweight and obesity, and academic performance? Do 
we have any research that conclusively demonstrates that poor 
diet or obesity also contributes to low test scores? Is there 
anything, whether it deals with both the diet and the health of 
the child or the self-esteem?
    Ms. Bogle. Senator Lincoln, I am not sure that there is a 
body of research out there specifically dealing with the 
academic performance of obese children. It is certainly an area 
that needs some research and looking at. I think in many ways, 
the obese child has been ignored, more or less, in this whole 
health issue while professionals like myself fussed about 
whether obesity was a disease or wasn't a disease.
    So I am not sure that there is, but I will tell you this. 
Arkansas is in a good position to give you some information 
about that based on the BMI studies that they have in the 
State, and I am sure that Dr. Thompson would be willing to give 
us that information and I will get that back to you.
    But just one brief thing is this. We do know about the 
extreme connection between obesity and health. So we don't 
really have to look for a lot of other reasons until you study 
whether or not the obesity makes a difference in the academic 
scores. We know that the unhealthy children don't do as well.
    Chairman Lincoln. But it gives us, I think, an added 
advantage of being able to seek out the solutions to that 
issue, because there are multiple effects, obviously.
    Ms. Bogle. Right.
    Chairman Lincoln. Obviously, health, but without a doubt, 
if it is absenteeism or if it is low self-esteem that is 
causing those poor grades, that is yet one more thing that we 
could correct, I hope, in terms of addressing obesity through 
better nutrition.
    Ms. Bogle. I agree.
    Chairman Lincoln. I also appreciate your discussion of the 
environmental factors that constrain or contribute to 
individual behaviors regarding food and physical activity 
choices. When we talk about helping people make good choices, 
we need to understand that their choices themselves are often 
limited by outside factors. I know when my husband and I left 
Little Rock the other day headed to Lee County, we stopped in 
Brinkley to get some gas, and the boys were hungry and wanted a 
snack and we walked into, really, almost the only place there 
to get food, and there was plenty of unnutritious food.
    I hate to use too many terms, but--and then I noticed on 
the counter there was a small bowl that had two rotten bananas 
and a small kind of shriveled-up apple, and I realize that what 
you have talked about there in terms of access in rural areas, 
we call them food deserts. They are something, really, that 
both rural areas and inner-city areas share in the fact that it 
is much more difficult to find fresh fruits and vegetables and 
nutritious foods, and that is something hard for most people to 
believe here in Washington.
    Those that didn't grow up in rural America, they don't 
realize it, because they think rural America is where all those 
fresh fruits and vegetables come from, on the farms that are 
there. They don't realize that sparse areas sometimes lead 
themselves to very few availabilities in terms of the kind of 
nutritious foods that we want and need.
    Maybe you might just touch on our need to understand that 
the choices themselves there are almost limited, and whether it 
be that the nearest supermarket is 30 miles away or the kids 
can't walk to school--you mentioned a little bit about the 
safety of it--but is there something there? Can we talk a 
little bit about how you coordinate your research with other 
Federal agencies that also have a role in health promotion 
policy, exercise, and other things? Do you think there are 
additional steps or actions that the government could take to 
coordinate those policies across programs and agencies?
    Ms. Bogle. I will say two things to that. Certainly, you 
have described the one place that I know in Brinkley to eat----
    [Laughter.]
    Ms. Bogle. The catfish is really good, but you can only get 
it fried.
    [Laughter.]
    Ms. Bogle. But there are other issues there where most 
folks don't understand that we don't have a Wal-Mart Super 
Center in every rural community in Arkansas, Louisiana, or 
Mississippi, which would be great. And so it gets down to sort 
of mom-and-pop stores, and when you go in--and we do this on a 
frequent basis--the quality of the fruits and vegetables are 
not--the fresh ones--what they should be, the reason being, of 
course, that they have been trucked long distances and then 
they sit there because it is expensive for that store owner to 
buy in the first place, so he is going to let them lay there as 
long as he hopes to sell them, I guess.
    And so it drives us many times to say, well, if not fresh 
fruits and vegetables, let us look at canned or frozen. And 
some people don't understand that when we recommend canned and 
frozen fruits and vegetables, but certainly that is better than 
just eating the fried things that may be more available.
    As to the cooperation at the Federal level or at the State 
levels, Secretary Vilsack mentioned earlier the efforts that 
are going on here between the Department of Education, the 
Department of Defense, and the Department of Agriculture. I 
think that is all very good. And, of course, he is really 
stepping up to the plate with his economic development. I have 
always maintained that nutrition had an economic development 
arm. We just need to promote it more.
    I think that if we teach the families in these rural 
communities to each more fresh fruits and vegetables and the 
little mom-and-pop stores provide them, the families will buy 
them and it would be a win-win situation for both of them. But 
it is going to take the cooperation of a lot of different 
agencies and a lot of different folks in all communities to get 
that done.
    Chairman Lincoln. Is there any one or several interventions 
or sets of interventions that you feel have had the biggest 
impact on the health of the participants, or would you feel 
like had the most promise for replication elsewhere? Is there 
any one thing that comes to mind?
    Ms. Bogle. I would just mention two. One, we developed, in 
addition to a food choice testing to see whether or not young 
children in an elementary school in Mississippi would even try 
fresh fruits and vegetables that they did not know or weren't 
accustomed to, we associated that with the development of a 
soccer team, or soccer teams in that elementary school for the 
kindergarten through third grade, now realizing, again, that is 
an area where the children don't normally participate in 
organized physical activity. And they didn't know what soccer 
was in this school, of course, or what kind of a ball to use.
    But to make a long story short, they loved it. And when we 
left there, when the research was over--and to us, this is the 
gratifying thing, that if we can do some research that is 
sustainable in those communities once we leave, then we know we 
are on the right track. But they incorporated the soccer 
program into their elementary school program as we left, and 
more and more children are getting the benefit of that.
    It also made a difference in their school lunch in that as 
we were doing the research to see whether or not the children 
would actually try these fresh fruits and vegetables, we used 
that in conjunction with the School Lunch Program and the Snack 
Program so that they were able to see that just minor changes 
in what they were doing and involving some women from the 
community and helping to get them prepared would make a 
difference for those children.
    Chairman Lincoln. So coordinating those activities, those 
sports with the feeding programs. I know that has been 
something that we have really looked at in the Summer Feeding 
Program because it is so difficult to implement those programs.
    Ms. Bogle. They need--so far as obesity is concerned, it is 
going to take both, you know, physical activity and good 
nutrition.
    Chairman Lincoln. Exactly. Well, thank you so much, Dr. 
Bogle.
    Rich, thank you for being here. We appreciate so much what 
you have done. You are very positive on the actions of this 
committee that was led by Chairman Cochran and that he took in 
2004 when it required the State Child Nutrition Agencies to 
directly certify for school meals children who are already 
participating in the Supplemental Nutrition Assistance Program. 
Some people forget what SNAP is, so we kind of like to word it 
out there a time or two.
    But your testimony also notes that of the ten million 
children eligible for direct certification in the 2008-2009 
school year, only 6.5 million of them were directly certified. 
Can you provide the committee some explanation as to why so 
many children were missing out on that direct certification? 
And when it is supposed to be--I mean, it is supposed to be an 
automatic process, I mean, why are we missing so many? And can 
you also make some suggestions as to how we can improve that 
State performance in direct certification?
    Mr. Huddleston. Sure. Well, the good news is that USDA has 
done some very helpful research to identify these factors and 
to really offer some positive solutions. I mean, one of their 
findings was that the most effective way to really reach kids 
through direct certification is for the Food Stamp office and 
food districts to use computer matches. And believe it or not, 
there are still a lot of States out there who are trying to do 
direct certification, but basically what happens is that 
instead of doing a computer match, the Food Stamp agency will 
send paper applications to the homes of their Food Stamp 
recipients and ask the parent to fill it out and then return it 
to the school. Well, that really kind of defeats part of the 
advantages of doing direct certification, when you have access 
to computers.
    The second suggestion they had was to do these matches more 
than once during the year, because obviously families become 
poor after kids start the school year. And so we may be missing 
kids if we don't do matches more often. I mean, so that was 
another suggestion they had.
    And then finally, it is really important for States that 
aren't doing well here to really kind of consciously step back, 
sit down and look at the reasons why they are not reaching kids 
through direct certification. I mean, it is real important that 
they work with USDA to really figure out these reasons, and 
believe it or not, State agencies get busy sometimes and they 
don't have the time or don't make the time to really kind of 
sit back and do that kind of analysis.
    I think the good news is that for low-performing States, 
Congress provided in the 2010 Agricultural appropriations law 
some grants for low-performing States that really should help 
motivate States to identify improvements and provide them with 
the resources to implement these improvements.
    The Hunger-Free Schools Act, which is obviously still not 
law yet, includes other provisions that would help improve 
direct certification. It would include bonuses for States that 
are performing especially well or that show significant 
improvement. It would also require States that don't perform 
well to write and implement improvement plans.
    So there are things that States can do already and there 
are steps coming down the road that could also improve the 
ability of States to be effective here.
    Chairman Lincoln. So incentivizing them is helpful, it 
sounds like.
    Mr. Huddleston. Yes.
    Chairman Lincoln. You mentioned a proposal that would allow 
schools in high-poverty areas to just offer free meals to all 
students and just skip the regular paper application process. 
Could you tell me what that might mean in our State of 
Arkansas?
    Mr. Huddleston. Sure.
    Chairman Lincoln. How many schools would be eligible?
    Mr. Huddleston. In Arkansas, there are about 250 schools in 
which more than 80 percent of the students are enrolled for 
free or reduced meals in those schools. And you add those kids 
up, that is about one in five Arkansas students who attends one 
of those 250 schools.
    Schools that participate in a universal feeding option like 
this would see a major reduction in their paperwork. They would 
not have to process applications, or they wouldn't have to go 
regularly verify eligibility for a sample of the enrolled 
students. They wouldn't have to take payments in the cafeteria 
or track which students qualify for free meals on a daily 
basis. The administrative savings--I mean, the simplifications 
would allow school staff to really focus more on either 
providing more nutritious meals or on improving their 
educational programming.
    So this is a real important step that could really be a big 
benefit to these schools, and not just to mention from the 
perspective of a student. It really would reduce the stigma 
that students have to go through on a daily basis. I mean, kids 
are very conscious about who is wearing the best tennis shoes 
and the best jeans and all that. Well, the flip side of that is 
that kids know who is having to fill out paperwork for these 
meals. So no student should have to go through that 
stigmatizing process in order not to go hungry. Yes.
    Chairman Lincoln. Thanks----
    Mr. Huddleston. And not to mention the fact that if you did 
this, you would reach a lot of students who maybe don't qualify 
now, but because if the school was serving all of the students, 
you would have folks at 190 percent of poverty, 200 percent of 
poverty, 210 percent of poverty who are still struggling to 
make ends meet day to day but who would also benefit from free 
meals.
    Chairman Lincoln. Right. Well, I visited with a school--I 
went to the lunchroom with some students in St. Francis County, 
which is in East Arkansas, and it was amazing not only to the 
stigma that children get, but the position it puts those school 
cafeteria workers in when they have to ask a child. They don't 
want to do that. They don't want to put that child in that 
position. They know what it does to their self-esteem and they 
know that it might cause that child to turn and walk away or 
not come back to the cafeteria the next day. So, I mean, it is 
beneficial for everybody, not just the kids, but the workers, 
the community, and certainly the school and being able to 
really put their resources where they can be most effective on 
behalf of the children.
    But thank you for your work. We are so grateful to you.
    And, Ms. Sanders, thank you. In your testimony, you 
mentioned that our State is a low-income rural State. People, 
again, in Washington oftentimes that look at this issue just on 
paper have such a hard time understanding that children or 
families in rural areas have a difficult time getting 
nutritious foods. They think that is where the bounty is. It 
comes from rural America. Why is it so difficult for those 
families that live in those areas?
    But it is not only that you live further from perhaps the 
delivery point, which is the grocery store, where you are going 
to get the majority of your access, but you also live out in 
that country where you are farther away from the human services 
agency, certainly the nearest food pantry, which may be 
difficult to get to, which is usually in town, not out in those 
rural areas and those rural routes.
    And your child is going to live farther from the school 
that they attend, so they are going to be on a bus. They are 
going to be in transit more time than other students, as well. 
They may miss the Breakfast Program because it takes them too 
long to get to school, or they may miss the after school snack 
because they have to leave early enough on the bus to get home.
    So those are a lot of other things that factor into that 
issue, and I think it is so important for those of us that have 
lived out on a county road. We know what those challenges are, 
and it is so important for us to remember that because they are 
probably those that are more likely to be lower income and in a 
greater need.
    I just want to ask, knowing that these challenges all exist 
in fighting hunger in rural areas, what advice or maybe 
recommendations you would give the committee about how we 
better address that particular food security need in rural 
areas.
    Ms. Sanders. That is an interesting question and there are 
some things that can be done utilizing the current government 
programs that could expand access, especially to children when 
they are not in school, which is one of the things that you 
mentioned.
    For instance, the Summer Feeding Program, an excellent 
program, woefully underutilized throughout the nation, and part 
of that has to do with some of the ways that we have determined 
those meals have to be provided. First of all, they have to be 
provided in a congregate setting, which means everyone has to 
come there, sit down, and eat. Well, just as you mentioned, in 
the rural setting, it is not always easy to do. During the 
summertime, those children may not be able to hop in their cars 
and drive to the nearest place where they can all sit down 
together and eat that meal.
    So I think there will be an opportunity to look at some new 
ways, some new pilot thoughts on can we maybe take the meals 
out more into the rural setting, some different methods of 
delivery. And I am hoping that with what you have done through 
the extension of the Child Nutrition Act, with some of that 
money for pilot thoughts of Summer Feeding, we might be able to 
find some pretty significant ways to expand those opportunities 
that are outside of that congregate setting that I think affect 
rural Arkansas, rurality throughout the nation. Those would be 
good opportunities to look at ways to expand those programs.
    There is also, when we talk about eligibility to things 
like after school meals and summer school programs, currently, 
they use the area eligibility indicators of 50 percent on free 
or reduced lunch, and then those children are eligible for 
after school and summer meals. That could be reduced down to 40 
percent. It has been lower than that even previously. But we 
could go back to that, which in Arkansas--I think I have 
attached the map to my written testimony--would significantly 
allow for more areas of the State to be eligible for meals 
after school, during the summer, those things like that are 
very difficult for rural Arkansas.
    As far as for the Charitable Food Systems' involvement, 
things like the Backpack Programs or those where when we have 
the opportunity that we have the children to send boxes with 
them, once again, they are taking it with them. We are not 
having to worry about how to get to them. And they are having 
access to food, that we can be a part of that through this 
system is just a great way. And I know so many of them utilize 
the--so many of our pantries and agencies are involved in the 
Commodities Program, and those expansions provide lots of 
opportunities for families to have assistance with food.
    Chairman Lincoln. Well, I think just recognizing that it is 
a challenge is important. I know Dr. Bogle had worked on the 
aspect of doing almost a circuit rider-type delivery system, 
where trucks were going out to those county roads and providing 
fresh fruits and vegetables on a regular basis so that people 
knew that there was going to be a food service-type truck 
stopping by at a regular time and point where they could 
actually get the kind of nutritious foods that they would want 
and need in those rural settings if they didn't have access to 
being able to drive 30 miles into the nearest town where the 
nearest grocery store was. So there is certainly a lot there.
    Just one last thing I wanted to ask you. You said that the 
data shows that children whose families are food insecure are 
more likely to be at risk for overweight and obesity.
    Ms. Sanders. Yes.
    Chairman Lincoln. You know, that just sounds 
counterintuitive. If you live in a household where you don't 
know where your next meal is going to come from, you would 
think that you would be eating less often, which you would 
think would reduce your risk of overweight or obesity. Either 
you are food insecure or you are overweight, not both at the 
same time.
    But what your testimony suggests is just the opposite, and 
I think there is more. Not only can you be both food insecure 
and overweight, you are more likely to be overweight, and, of 
course, a lot of that goes to the types of foods that you eat.
    Would you offer maybe some of your insight as to why you 
think this is the case, and how do we fight this twin problem 
of hunger and obesity?
    Ms. Sanders. I think you hit on several of the areas that 
we feel like are the cause for this. One is the availability of 
quality foods at a price that is affordable to low-income 
families. So they are struggling with, I only have so much 
money and how do I get those really good foods that are more 
expensive.
    They are also struggling with--just oftentimes for a young 
mom or a caregiver, the emotional impact of dealing with all of 
those things that are hitting you at one time. So there have 
been some bodies of research and causes that have linked 
caregiver depression and the situations that they are in that 
are related directly to the child eating things that may not be 
the most nutritious for them.
    And this data all came from the Children's Health Watch 
Project, of which Arkansas is one of the main sites for 
gathering information. So it has been very interesting to look 
at it and see how it correlates.
    As far as to addressing the issue, obviously, increasing 
the nutritional packages, such as they have done with WIC and 
those programs, the things that we have done through the 
schools, through preschool--in Arkansas, as you know, we are 
getting a lot of three-and four-year-olds in preschool. So a 
lot of the standards that we are looking at for nutritious food 
and physical activity fit now within that preschool setting.
    And it has been very interesting being--I am also on my 
local school board, so I get to hear a lot of the discussions 
bouncing back and forth between what the schools can do and 
what can be done for the health of children and balancing those 
nutritional items and teaching the kids the right way to eat 
and involving the parents. And whether people liked it and 
enjoyed it, sending the BMI letters home in Arkansas was 
awareness raising for the parents to get that in their home. It 
was uncomfortable in many aspects. It was hard to deal with. 
But once again, you talk about getting some parental 
involvement, they became involved at many levels at that point.
    So I think the Head Start programs, when you go back to 
things that can be done and access to preschool, here you are 
once again dealing with three-and four-year-olds. They have got 
a strong program, more nutritional education and parental 
involvement. Once again, it gets to the sources of those 
families of young children that are struggling with how to feed 
their children, how to feed themselves, and how to make ends 
meet.
    Chairman Lincoln. But you make a good point, and we did 
experience that in Arkansas, the discomfort level among parents 
when they received information about their children that their 
body mass index was out of control. And many of them, I can 
remember the reaction was, you are telling me I am not doing a 
good job raising my children. And that wasn't what it was. It 
was clearly information to help them better provide for their 
children and to work at creating a healthier environment for 
their kids.
    But it does go to the fact that information is key in 
making sure that parents are aware and they do have 
information. And it is a good way to get them involved. I know 
a couple of our school principals found that providing a steak 
dinner for the parents actually got the parents all to come to 
the school, and then she got their attention and was able to 
really convince them to participate in a lot of the school 
activities with their kids, which in turn engaged them in the 
ideas of not only what their kids were doing at school in terms 
of meals and other activities, but also at home. And so that is 
really important.
    But we appreciate all your hard work and your outreach to 
the people of Arkansas who, particularly in these economic 
times, have tremendous needs. So thank you for being here 
today, too.
    Ms. Smith, I am very interested to learn about your 
experience, obviously from the transition on the SNAP Program, 
but how we can also transition WIC. You have spoken an awful 
lot about that, transitioning WIC into the 21st century, 
especially by encouraging or mandating the transition to an EBT 
system. Could you talk a little bit more about your experience 
with the SNAP EBT transition and the benefits that occurred? I 
mean, you have talked a little bit about that, but clearly, 
being able to, in the volume that you all deal with, to be most 
efficient.
    Ms. Smith. Well, and I apologize, but my experience doesn't 
reside with that. I know that happened a few years ago, and 
that was really before my time with the company, so--but I can 
speak to you about the WIC EBT transitions we have been through 
and what we have seen in the States that have already fully 
adopted a WIC EBT platform.
    Chairman Lincoln. That is a good comparison, the ones that 
have and the ones that haven't.
    Ms. Smith. Say Texas, for instance, a fairly large State, 
we have seen increased engagement from our store associates in 
serving the WIC customers. It is a much more pleasant 
experience at the cash register point of sale. A colleague of 
mine for another company often refers to the cashier as having 
to act as the WIC police sometimes in a paper transaction. So 
with an Electronic Benefits platform, that type of 
confrontation is eliminated.
    There is also a faster turnaround time in payment to the 
retailers with an Electronic Benefits payment platform. So on a 
paper transaction basis, you normally see float of maybe 30 to 
45 days before a retailer might receive payment for WIC 
vouchers submitted to the State agency for payment. With WIC 
EBT, depending on the platform, you are paid either same day or 
next day at the latest. So that is an increased turnaround time 
for settlement purposes for the retailers.
    It has also, I think, lessened administrative burden quite 
a bit. Many of the compliance issues that retailers face with 
the WIC Program are borne at the point of sale with the cashier 
or in the office, where we are processing the checks and 
submitting them for payment. So with an Electronic Benefits 
platform, those opportunities for error, either at the cash 
register or in the office, are eliminated. So you have less 
risk of compliance violations and less administrative burden 
following up on those compliance violations.
    So those are some of the benefits that we have seen----
    Chairman Lincoln. Well, maybe you can--when you talked 
about standards earlier in your testimony, you can paint a 
picture for the committee of what is going to happen if the 
committee does require a national EBT system by a certain date 
but without national standards.
    Ms. Smith. We actually may see that scenario play out very 
soon in the State of Oklahoma, a neighbor to the State of 
Arkansas. The Cherokee Nation, a recent adopter of EBT for its 
benefits distribution for the WIC program, has implemented a 
Smart Card program, the offline program, and the State of 
Oklahoma, which obviously those jurisdictions overlap, is 
considering right now an online or magstripe program. The 
Chickasaw Nation, also in Oklahoma, is committed to developing 
an online program, as well. So very shortly, we will see just 
how well this mix of technologies may or may not work in a real 
world environment.
    There are examples, though, of interoperability in Texas 
and New Mexico, neighboring States that both adopted the Smart 
Card, or offline approach to EBT delivery. Those two States--in 
the El Paso market area, there are a number of New Mexico 
residents who shop in the El Paso market area because it is 
closer for them to go there than somewhere else inside their 
own State to buy their groceries. New Mexico residents very 
easily use their Smart Card to purchase their WIC items in our 
Texas stores and it has been a very successful--it is a win-win 
for both the State of Texas and the State of New Mexico.
    Chairman Lincoln. Well, I thought I heard you in your 
testimony, you were saying that last year, you did 400,000, and 
then you went within the same period of the next year, you did 
four million----
    Ms. Smith. We went from four million to 4,400,000, so we 
increased approximately 400,000 transactions in a year's time.
    Chairman Lincoln. Okay. I was thinking, 400,000 to four 
million was a pretty big leap. I wasn't sure if I had heard 
that correctly.
    Particularly in regard to the central database of products 
that are eligible for use under the WIC program, do you think 
there is a role for the private sector and the retail community 
in establishing a central database? And maybe you can help us 
understand the scope of a task like that, both in terms of 
establishing such a database, but also in terms of maintaining 
it. I mean, I would be curious to know how often new food 
products are introduced into the marketplace and how often are 
new WIC foods introduced into the marketplace and how much work 
would that be to maintain a real-time system that has tracked 
all those products.
    Ms. Smith. It is a very good question. Particularly with 
the WIC Program, it is much more onerous than, say, the SNAP 
Program, where you really have foods within the SNAP program--
it is easier to identify the foods that are not eligible than 
the foods that are.
    The WIC Program has very specific food requirements for its 
participants, whether it be package size requirements or 
nutritional value of the foods that are being purchased, those 
types of things.
    Is there a role for the private sector to play? I think we 
play that role already today in that we are submitting the 
information about the products that we want to make available 
to the WIC participants. I think the challenge today is that 
because the process varies so widely between WIC authorities, 
it is difficult to come up with a uniform approach to 
submitting that information to WIC authorities, and that is a 
problem not only for the retail community, but the 
manufacturing community, as well.
    I think that we want an easier way to submit the product 
information more quickly to one single location so that we can 
get that information out to all of the WIC authorities--it 
would be available for them, as well--to more quickly make 
choices about changes to their food packages or their approved 
food lists.
    Right now, generally speaking, most WIC authorities review 
their approved food list once a year. It is typically in the 
fall in concurrence with the Federal fiscal year. So just last 
week, in fact, we got a request from the State of Pennsylvania 
to submit information about our Great Value brand products that 
would be available in the State of Pennsylvania for the 2010-
2011 food lists. So they are already planning for next year's 
food items.
    Chairman Lincoln. Those are good suggestions.
    Well, thank you all so much for joining us. I apologize for 
the interruption with the votes on the floor, but that is 
pretty commonplace around here, and I want to thank my 
colleagues. I think you hopefully noticed the level of 
attendance we had early on with the hearing. Members are 
extremely interested in this issue.
    Senator Harkin did an awful lot of work and the staff did a 
tremendous amount of work early on in the Child Nutrition 
reauthorization, and we want to work diligently to do it in a 
timely way so that we can also get the maximum benefit out of 
our Federal resources. That means being sure that we get it 
done before the budget baseline changes. So we are going to be 
working hard to do that and we appreciate your input and look 
forward to working with you all as we move forward.
    I think this is the fifth hearing we have had now on child 
nutrition, so we are working to come to a completion and be 
able to be ready to do something after the first of the new 
year.
    But again, thank you all so much for your input here today, 
but more importantly, for the hard work that you do across our 
State in really dealing with the tough issues of food 
insecurity among our families and particularly our children at 
a really critical economic time. Hopefully, that translates up 
here and we can get some good work done on behalf of all those 
families.
    So thank you all so much for joining us.
    The committee is adjourned.
    [Whereupon, at 1:05 p.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                           November 17, 2009



      
=======================================================================

<GRAPHIC NOT AVAILABLE IN TIFF FORMAT>


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           November 17, 2009



      
=======================================================================

<GRAPHIC NOT AVAILABLE IN TIFF FORMAT>




      
=======================================================================


                         QUESTIONS AND ANSWERS

                           November 17, 2009



      
=======================================================================

<GRAPHIC NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
